APPENDIX

la
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT, FILED
JANUARY 19, 2021
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-5362
AHMED ALI MUTHANA, INDIVIDUALLY,
AND AS NEXT FRIEND OF HODA MUTHANA
AND MINOR JOHN DOE,
Appellant,
v.
MICHAEL R. POMPEO, IN HIS OFFICIAL
CAPACITY AS SECRETARY OF THE
DEPARTMENT OF STATE, et al.,
Appellees.
Appeal from the United States District Court
for the District of Columbia.
(No. l:19-cv-00445).
May 15,2020, Argued
January 19, 2021, Decided
Before: Tatel and Rao, Circuit Judges, and Sentelle,
Senior Circuit Judge.

2a
Appendix A
Opinion for the Court filed by Circuit Judge Rao.
Opinion concurring in the judgment filed by Circuit
Judge Tatel.
Rao, Circuit Judge: Hoda Muthana grew up in the
United States, but at age twenty left college to join the
Islamic State of Iraq and Syria (“ISIS”). After marriage
to two different ISIS fighters, Hoda now seeks to return
to the United States with her son, John Doe. The State
Department maintains that Hoda is not a citizen and has
no right to return to the United States. Hoda’s father,
Ahmed Ali Muthana (“Muthana”), initiated this lawsuit
on behalf of his daughter and grandson to settle their
citizenship. The district court held that Hoda and her son
are not U.S. citizens, because Hoda’s father possessed
diplomatic immunity when she was born in the United
States, rendering her ineligible for citizenship by birth
under the Fourteenth Amendment and her son ineligible
for citizenship under 8 U.S.C. § 1401(g). We affirm the
district court. A child born in the United States to a
foreign diplomat is not born “subject to the jurisdiction”
of the United States and thus not entitled to citizenship by
birth under the Fourteenth Amendment. Hoda Muthana
is not now and never was a citizen of the United States
because her father enjoyed diplomatic immunity pursuant
to the Vienna Convention on Diplomatic Relations when
she was born, and she was never naturalized. Because
Hoda is not a citizen, neither is her son, who was born
abroad to two alien parents.

3a
Appendix A
Muthana also sought mandamus relief to compel
the United States to assist in bringing Hoda and John
Doe back to the United States; however, we have no
jurisdiction over such a claim and it must be dismissed.
Finally, Muthana sought a declaratory judgment that if
he sent money and supplies to his daughter and grandson,
he would not violate the prohibition on providing material
support for terrorism, 18 U.S.C. § 2339B. We agree
with the district court that Muthana did not establish
standing because he failed to allege a personal injury to
his constitutional rights.
I.
Ahmed Ali Muthana served as the First Secretary
of the Permanent Mission of Yemen to the United
Nations. During this posting he lived in New Jersey with
his wife and children. The United Nations notified the
State Department of Muthana’s appointment in October
1990, thus entitling him to diplomatic-level immunity
pursuant to the U.N. Headquarters Agreement and
the Vienna Convention on Diplomatic Relations, Apr.
18, 1961, 23 U.S.T. 3227 (the “Vienna Convention”).1
After several years, Yemen terminated Muthana from
his diplomatic post and required him to surrender his
1. The United States accords diplomats stationed at U.N.
missions the same privileges and immunities as diplomats stationed
at embassies and consulates. See Agreement Between the U.S. and
U.N. Respecting the Headquarters of the U.N., June 26,1947,61
Stat. 3416; Convention on Privileges and Immunities of the U.N.,
Feb. 13,1946,21 U.S.T. 1418. The State Department certified that
Muthana possessed “diplomatic agent level immunity.” J.A. 18.

4a
Appendix A
diplomatic credentials no later than September 1,1994. In
October 1994,2 Hoda Muthana was born in New Jersey to
Muthana and his wife, neither of whom was an American
citizen at the time. On February 6, 1995, the United
Nations notified the State Department that Yemen had
terminated Muthana from his diplomatic post. Muthana
and his wife, as well as Hoda’s older siblings, eventually
became naturalized citizens. Hoda, however, was never
naturalized as a U.S. citizen. Muthana applied for a U.S.
passport on behalf of Hoda, which the State Department
issued in 2005 and then renewed in 2014.
Later in 2014, Hoda dropped out of college, traveled
to Syria, and joined ISIS. Hoda became a prominent
spokeswoman for ISIS on social media, advocating the
killing of Americans and encouraging American women to
join ISIS. She also married two ISIS fighters in succession
and had a child, John Doe, by way of her second husband,
who was an ISIS fighter from Tunisia. In 2016, the State
Department revoked Hoda’s passport after determining
that it had been issued in error because Hoda was not
a U.S. citizen by birth and had never been naturalized.
In a letter sent to Hoda’s last known address, the State
Department informed her of the passport revocation and
explained that the passport had been issued based on an
error of fact—the government’s mistaken belief that at
the time of Hoda’s birth, Muthana no longer possessed
diplomatic immunity. In fact, Muthana retained his
diplomatic immunity until at least February 6, 1995,
2. As the precise date of Hoda’s birth is immaterial to the
legal questions, we omit it here in order to protect her privacy.

5a
Appendix A
months after Hoda’s birth. As the State Department
explained, a child born to a diplomat is not “subject to the
jurisdiction” of the United States, and therefore does not
have citizenship by birth. U.S. Const, amend. XIV, § 1.
Muthana received the letter and sent a response asserting
his daughter is a U.S. citizen by birth. In 2018, as the
ostensible Caliphate crumbled, Hoda and her son fled and
allegedly remain in a camp in Syria run by Kurdish forces.
After receiving communications from his daughter,
Muthana contacted the U.S. Attorney for the Northern
District of Alabama, where he resided, and expressed
Hoda’s “desire to return as well as her willingness
to surrender to United States authorities for any
contemplated charges.” The U.S. Attorney responded
by referring the matter to the State Department. About
a month later, Secretary of State Mike Pompeo issued
a public “Statement on Hoda Muthana” declaring that
“Ms. Hoda Muthana is not a U.S. citizen and will not be
admitted into the United States. She does not have any
legal basis, no valid U.S. passport, no right to a passport,
nor any visa to travel to the United States.” This statement
was recognized by President Donald Trump, who tweeted:
“I have instructed Secretary of State Mike Pompeo, and
he fully agrees, not to allow Hoda Muthana back into the
Country!”
The next day, Muthana filed a nine count complaint
in the U.S. District Court for the District of Columbia,
alleging these statements effectively revoked his
daughter’s and grandson’s U.S. citizenship in violation of
the Fourteenth Amendment. First, proceeding as next

6a
Appendix A
friend to his daughter and grandson, Muthana sought a
declaratory judgment “recognizing the citizenship of his
daughter and grandson.” Second, again proceeding as next
friend, Muthana sought “injunctive and mandamus relief
obligating the United States to accept Ms. Muthana and
her son back into the United States and to use all available
means to do so.” Third, Muthana sought a declaratory
judgment that he would not violate the prohibition on
providing material support for terrorism, 18 U.S.C.
§ 2339B, if he sent money and supplies to his daughter
and grandson in Syria. The government moved to dismiss
for lack of subject matter jurisdiction and failure to state
a claim, or, in the alternative, for summary judgment.
In support of its motion, the government attached a
certification from the State Department that Muthana and
his family possessed diplomatic immunity until February
6,1995, well after Hoda’s birth in October 1994.
The district court granted summary judgment to the
government on the citizenship and reentry claims and
dismissed the material support claim for lack of subject
matter jurisdiction. The court first found Muthana could
proceed as “next friend” to his daughter and grandson
because he had a “significant relationship” to them and
they were unavailable due to their presence in Syria.
Turning to the merits, the district court converted the
government’s Federal Rule of Civil Procedure 12(b)(6)
motion for failure to state a claim into a Rule 56 motion
for summary judgment. The court held that Muthana’s
citizenship and reentry claims all failed for the same
fundamental reason: Hoda is not, and never has been, a U.S.
citizen. The court determined that the State Department

7a
Appendix A
reasonably interpreted the Vienna Convention to provide
for diplomatic immunity until the sending state notifies
the receiving state of the diplomat’s termination. The
court next found that the State Department’s certification
was conclusive proof that Muthana continued to enjoy
diplomatic immunity on the date his daughter was born.
Because the child of a diplomat is not born “subject to
the jurisdiction” of the United States, the court held that
Hoda was not entitled to citizenship by birth and, since she
was not subsequently naturalized, never became a U.S.
citizen. Finally, the court dismissed for lack of jurisdiction
Muthana’s request for a declaration that he would not
violate the statutory prohibition on providing material
support for terrorism by sending aid to his daughter and
grandson. The court determined that Muthana failed
to allege the statute violated his constitutional rights.
Muthana timely appealed.
II.
Although the government does not renew its challenge
to standing on appeal, we have an independent obligation
to ensure our jurisdiction. Grocery Mfrs. Ass’n v. EPA,
693 F.3d 169,174,402 U.S. App. D.C. 307 (D.C. Cir. 2012).
There is a serious question of whether Muthana can sustain
next friend standing on behalf of his adult daughter Hoda.
Next friend standing is a narrow exception to Article
III standing, which requires that a party assert his own
rights in alleging an injury in fact. Next friend standing
has been generally limited to three historically grounded
exceptions codified by Congress: a person may assert next
friend standing on behalf of minors and incompetents,

8a
Appendix A
or to seek a writ of habeas corpus. See Whitmore v.
Arkansas, 495 U.S. 149,163 n.4,110 S. Ct. 1717,109 L. Ed.
2d 135 & 164 (1990) (“Indeed, if there were no restriction
on ‘next friend’ standing in federal courts, the litigant
asserting only a generalized interest in constitutional
governance could circumvent the jurisdictional limits of
Art. Ill simply by assuming the mantle of‘next friend.’”).
Hoda does not fit within any of the established exceptions.
At age twenty, she is not a minor, and Muthana has not
asserted that she is incompetent. See Fed. R. Civ. P. 17(c).
Nor does Muthana petition for a writ of habeas corpus on
Hoda’s behalf.
We need not decide whether Muthana may proceed
as next friend to Hoda, however, because Muthana may
proceed as next friend to his grandson.3 Federal Rule of
3. The district court held there was next friend standing
for Hoda and John Doe by relying on Ali Jaber v. United States,
which held that next friend standing may be invoked whenever
a “plaintiff[] can sufficiently demonstrate its necessity,” and
therefore that next friend standing does not require statutory
authorization. 155 F. Supp. 3d 70, 76 (D.D.C. 2016). We are not
aware of any Supreme Court or circuit precedent that extends next
friend standing beyond the exceptions codified by Congress. Ali
Jaber misconstrues the Supreme Court’s decision in Whitmore,
which identified serious Article III concerns with expanding next
friend standing and simply reserved the question of whether next
friend standing could be sustained absent statutory authorization.
Whitmore, 495 U.S. at 164. Moreover, we note that a decision
of our district court “do[es] not establish the law of the circuit,
nor, indeed, do[es it] even establish the law of the district.” In re
Executive Office ofPresident, 215 F.3d 20,24,342 U.S. App. D.C.
20 (D.C. Cir. 2000) (cleaned up).

9a
Appendix A
Civil Procedure 17 allows a next friend to sue on behalf
of a minor. Next friend standing on behalf of minors is a
long-recognized exception to the rule that a litigant can
claim injury only to his personal interests. See Whitmore,
495 U.S. at 163 n.4. This exception recognizes that a
minor “must be represented by a competent adult” to
pursue his claims in court. T.W. by Enk v. Brophy, 124
F.3d 893,895 (7th Cir. 1997); see also Whitmore, 495 U.S.
at 165 (explaining the “ancient tradition” of next friend
standing requires that “the real party in interest is unable
to litigate his own cause due to mental incapacity, lack of
access to court, or other similar disability”). Muthana thus
may proceed on behalf of his grandson if he qualifies as
his next friend. He does.
To determine whether a person may proceed as next
friend to a minor, we examine the relationship between
the proposed next friend and minor. See T.W. by Enk, 124
F.3d at 897; cf. Whitmore, 495 U.S. at 163-64 (explaining
that, to obtain a writ of habeas corpus as a next friend, the
next friend “must be truly dedicated to the best interests
of the person on whose behalf he seeks to litigate” and
suggesting that a significant relationship is required). Not
every person who is interested in serving as a minor’s
next friend qualifies for that role. There must ordinarily
be a significant relationship between the proposed next
friend and minor, see T.W. by Enk, 124 F.3d at 897, though
that requirement may not rigidly apply when a minor has
no significant relationships, see Sam M. ex rel. Elliott v.
Carcieri, 608 F.3d 77, 91 (1st Cir. 2010).

10a
Appendix A
Muthana easily qualifies as next friend to his grandson.
A minor’s parent or close relative is a natural fit to serve
as his next friend in most cases. The government argued
below that, as his mother, Hoda was the appropriate next
friend for John Doe. But when a minor’s parent is “unable,
unwilling or refuses to act” as next friend to the minor,
another person may proceed as next friend. See Ad Hoc
Comm, of Concerned Teachers v. Greenburgh No. 11
Union Free Sch. Dish, 873 F.2d 25,30 (2d Cir. 1989). Hoda
is unable to proceed as John Doe’s next friend because she
is inaccessible in a Kurdish camp in Syria and unable to
return to the United States. Muthana is a close relative
of John Doe who is able and willing to litigate his claims.
Because Muthana has a significant relationship to his
grandson, he may proceed as John Doe’s next friend.
Once a court determines that a party has standing to
proceed as next friend, it must determine if the real party
in interest possesses standing in his own right. Here, the
alleged deprivation of American citizenship without due
process of law is a judicially cognizable injury in fact.
See U.S. Const, amend. XIV, § 1; see also Kennedy v.
Mendoza-Martinez, 372 U.S. 144,159,83 S. Ct. 554, 9 L.
Ed. 2d 644 (1963) (“Citizenship... is expressly guaranteed
by the Fourteenth Amendment to the Constitution, which
speaks in the most positive terms.”). Accepting Muthana’s
allegations as true, the U.S. government denied John Doe
his U.S. citizenship without due process. See Lujan v. Defs.
ofWildlife, 504 U.S. 555,561,112 S. Ct. 2130,119 L. Ed. 2d
351 (1992) (explaining that we take a plaintiff’s affidavits
and other factual evidence as true when determining
standing at the summary judgment stage). This injury

)

11a
Appendix A
is actual and personal to John Doe, fairly traceable to
the government’s conduct, and redressable through a
declaratory judgment settling his citizenship. See id. at
560-61. Because John Doe would have standing to bring
his citizenship claim, Muthana can pursue this claim as
his grandson’s next friend.
The district court had jurisdiction to determine John
Doe’s citizenship, a question that necessarily required
a determination of his mother’s citizenship. Under the
Immigration and Nationality Act, a person born outside
the United States to one citizen-parent is a citizen as
long as his citizen-parent lived in the United States for
five years, and was at least fourteen years old for two of
those years. 8 U.S.C. § 1401(g).4 The only alleged basis
for John Doe’s citizenship is the citizenship of his mother.
Therefore, it is impossible to disaggregate the question
of John Doe’s citizenship from that of his mother’s.
Although Muthana cannot proceed as next friend to
Hoda, the district court was required to determine Hoda’s
citizenship as a necessary incident of its jurisdiction to
determine John Doe’s citizenship.
4. As relevant here, 8 U.S.C. § 1401 provides:
The following shall be nationals and citizens of the
United States at birth: ... (g) a person born outside
the geographical limits of the United States and its
outlying possessions of parents one of whom is an alien,
and the other a citizen of the United States who, prior
to the birth of such person, was physically present
in the United States or its outlying possessions for
a period or periods totaling not less than five years,
at least two of which were after attaining the age of
fourteen years[.]

12a
Appendix A
We review de novo a district court’s grant of summaryjudgment and dismissal of a claim for lack of subject
matter jurisdiction. Waggel v. George Washington Univ.,
957 F.3d 1364, 1371, 446 U.S. App. D.C. 390 (D.C. Cir.
2020) (summary judgment); Ctr.forLaw & Educ. v. Dep’t
of Edue., 396 F.3d 1152, 1156, 364 U.S. App. D.C. 416
(D.C. Cir. 2005) (lack of jurisdiction). Summary judgment
should be granted if “there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. R 56(a).
III.
Although Muthana’s claims focus on the revocation
of citizenship for Hoda and John Doe, this case requires
us to first ascertain whether Hoda and John Doe were
United States citizens. That question turns on whether
Muthana possessed diplomatic immunity when Hoda was
born. Under the Fourteenth Amendment, “[a]ll persons
born or naturalized in the United States, and subject to
the jurisdiction thereof, are citizens of the United States.”
U.S. Const, amend. XIV, § 1. A child born on U.S. soil to
a foreign diplomat possessing diplomatic immunity is not
eligible for citizenship by birth because she is not born
“subject to the jurisdiction” of the United States. See
United States v. Wong Kim Ark, 169 U.S. 649, 693,18 S.
Ct. 456, 42 L. Ed. 890 (1898); Nikoi v. Attorney Gen. of
United States, 939 F.2d 1065,1066,291 U.S. App. D.C. 237
(D.C. Cir. 1991) (“The jurisdiction clause was intended to
exclude from its operation children of ministers of foreign
States born within the United States”) (cleaned up).
We agree with the district court that because Muthana

13a
Appendix A
enjoyed diplomatic immunity at the time of Hoda’s birth,
she did not become a citizen at birth and therefore John
Doe did not acquire citizenship because he was born
abroad to non-citizen parents.
The argument proceeds as follows. First, under
the Vienna Convention, diplomatic immunity continues
until notification of a diplomat’s termination to the host
country. Muthana’s arguments to the contrary cannot be
squared with the plain meaning of the Convention and
longstanding diplomatic practice. Second, in this case
the State Department certified to the district court that
it was notified of Muthana’s termination on February 6,
1995. Under our precedents, such certification provides
conclusive evidence that Muthana enjoyed diplomatic
immunity at the time of Hoda’s birth in October 1994,
and therefore that Hoda did not become a U.S. citizen at
birth. Finally, we cannot grant Muthana equitable relief
because courts have no power to confer citizenship where
it otherwise does not exist under the laws of the United
States.
A.
Diplomatic immunity is governed by the Vienna
Convention on Diplomatic Relations. See 23 U.S.T. 3227.
When interpreting treaties, “we are guided by principles
similar to those governing statutory interpretation.”
Iceland S.S. Co., Ltd.-Eimskip v. Dep’t ofArmy, 201 F.3d
451, 458, 340 U.S. App. D.C. 1 (D.C. Cir. 2000). Muthana
argues that the Convention allows diplomatic immunity to
cease on the date of his termination from his diplomatic

14a
Appendix A

'

post, which was prior to Hoda’s birth. Because he lost
diplomatic immunity before his daughter’s birth, Muthana
maintains that Hoda is a birthright citizen. The government
argues that the Convention requires diplomatic immunity
to continue until a reasonable period after notification
of termination to the host country. Because the State
Department was not notified of Muthana’s termination
until after Hoda’s birth, she is not a citizen by virtue of
her birth in the United States. “[T]he meaning attributed
to treaty provisions by the Government agencies charged
with their negotiation and enforcement is entitled to great
weight.” Starr Int’l Co. v. United States, 910 F.3d 527,537,
439 U.S. App. D.C. 96 (D.C. Cir. 2018) (quoting Sumitomo
ShojiAm., Inc. v. Avagliano, 457 U.S. 176,184-85,102 S.
Ct. 2374, 72 L. Ed. 2d 765 (1982)).
Here, the State Department’s interpretation comports
with the plain meaning of the Convention that diplomatic
immunity ceases when the host country is notified of the
termination. Article 43 of the Convention states in full:
The function of a diplomatic agent comes to an
end, inter alia: (a) on notification by the sending
State to the receiving State that the function of
the diplomatic agent has come to an end; (b) on
notification by the receiving State to the sending
State that, in accordance with paragraph 2 of
Article 9, it refuses to recognize the diplomatic
agent as a member of the mission.
23 U.S.T. 3227, art. 43. Article 39 of the Convention
connects the end of diplomatic functions with diplomatic

15a
Appendix A
immunity, providing that “[wjhen the functions of a person
enjoying privileges and immunities have come to an end,
such privileges and immunities shall normally cease” when
the diplomat leaves the country or after a “reasonable
period in which to do so, but shall subsist until that time.”
Id. at art. 39. The text of the Convention plainly provides
that a diplomat’s functions end upon “notification” to the
receiving state and that diplomatic immunities continue
from the date of notification for a “reasonable period” or
until the diplomat leaves the country.
This notification condition comports with longstanding
principles of international law and state practice, which
allowed diplomatic immunity to continue for a reasonable
period after diplomatic service ended and thereby
protected diplomats by giving them some breathing
room to leave the country or to make other arrangements
without exposure to the jurisdiction of the host country.
See, e.g., Emer de Vattel, The Law of Nations bk. IV,
ch. IX § 125 (B. Kapossy & R. Whatmore eds., 2008)
(“[Wjhen he is obliged to depart on any account whatever,
his functions cease: but his privileges and rights do not
immediately expire.... His safety, his independence, and
his inviolability, are not less necessary to the success
of the embassy in his return, than at his coming.”). The
notification standard ensures that decisions regarding the
status of diplomats generally turns on the determinations
of the sending state.5 Luke T. Lee, Consular Law and
5. A receiving state can end the functions of a diplomat by
following the requirements of Article 43(b), which requires notice
to the sending state and then the provision of a “reasonable period”
of continued immunity under Article 39.

16a
Appendix A
Practice 95 (2d ed. 1991) (explaining that the notification
standard respects state sovereignty by preventing
“the receiving State [from] investigating the internal
administration of the foreign consular organization in
order to determine what status the [diplomatic or consular
officer] holds”); cf Vattel, The Law of Nations bk. IV,
ch. IX § 78 (noting a sovereign’s exclusive control over
its diplomatic missions abroad). Thus, under the plain
meaning of the Convention, reinforced by historical
practice, diplomatic immunity continues at least until the
host country is notified of a diplomat’s termination.6
To support his interpretation, Muthana asserts that
the term “inter alia” in Article 43 demonstrates that
diplomatic immunity can cease either on the date the
receiving state is notified of termination or the date of
actual termination. Muthana argues that “inter alia” is a
term of illustration, not of exclusion, so although notification
is an example of when diplomatic immunity may cease, it
is not the only standard. According to Muthana, Article
6. The parallel evolution of consular immunity also bolsters
the interpretation of termination and notification as distinct
standards for governing the cessation of diplomatic functions.
Before 1963, an individual possessing consular immunity, as
opposed to full diplomatic immunity, generally lost such immunity
immediately upon termination, rather than notification. The
Vienna Convention on Consular Relations, however, ended “[t]he
differential treatment accorded to consuls,” Lee, Consular Law
and Practice 112, and replaced the termination standard with the
notification standard, Vienna Convention on Consular Relations,
Apr. 24,1963,21 U.S.T. 77, art. 25(a). This history buttresses the
conclusion that notification and termination are distinct periods
for marking the end of diplomatic immunity.

17a
Appendix A
43 does not foreclose an interpretation that diplomatic
immunity ends as of the date of termination.7 He reasons
that, because termination is a possible standard, the
State Department’s decisions in 2005 and 2014 to issue
a passport to Hoda were exercises of the Department’s
“discretion” to determine that Muthana did not have
diplomatic immunity at the time of Hoda’s birth.
Muthana’s arguments, however, cannot be squared
with the text, structure, purpose, and history of the
Convention. As already discussed, the plain meaning of the
Convention provides for a diplomat’s functions to continue
until notification of termination to the receiving state.
The Convention’s use of “inter alia” in Article 43 refers to
other established circumstances that might end diplomatic
functions, such as the death of a diplomat, the extinction of
the sending or receiving state, a regime change, severance
of diplomatic relations, and war. See, e.g., 23 U.S.T. 3227,
7. Muthana’s reliance on Raya v. Clinton, 703 F. Supp. 2d
569,578 (W.D. Va. 2010), is misplaced because that case concerned
a termination that occurred after notification. In Raya, Egypt
notified the United States in advance that a diplomat’s functions
would terminate in a few days. This notification meant that the
diplomat’s immunity would continue until he left the country
or the expiry of a reasonable period in which to do so. Id.; see
also 23 U.S.T. 3227, arts. 39 & 43. Because notification occurred
before termination, the termination date informed how long the
diplomat’s immunity would subsist for the “reasonable period” for
him to leave the country. See Raya, 703 F. Supp. 2d at 578. Here
Muthana was terminated before the United States was notified
of his termination and the relevant legal question in this case is
about the date of notification of termination, not about the length
of a “reasonable period” for continued immunity after notification.

18a
Appendix A
art. 39(3) (death of a diplomat), art. 45 (war and severance
of diplomatic relations). Thus, “'inter alia’, as used in the
Vienna Convention indicated] also the existence of other
conditions. All of these are now described.” Lee, Consular
Law and Practice 94. What “inter alia” does not include
is allowing diplomatic immunity to turn on termination,
a condition nowhere specified in the Convention and
inconsistent with longstanding diplomatic practice.
Muthana’s reading of coexisting termination and
notification standards also runs afoul of one of the
purposes of the Convention, namely to provide certainty
and clarity in diplomatic relations. If either termination
or notification of termination could govern the end of a
diplomat’s functions, diplomats could not be certain of the
continuation of their immunity and host countries would
not be certain of the status of lingering diplomats. See
id. at 93 (explaining that international crises have arisen
due to disagreement and confusion over when diplomatic
immunity terminates). The Convention seeks to establish
uniform standards for the diplomatic intercourse between
nations in order to promote predictability and reciprocity.
See id. (highlighting the importance of a “[c]lear statement
of the condition under which the consular status of an
individual terminates”) (citation and quotation marks
omitted); see also 23 U.S.T. 3227 pmbl. (explaining the
Vienna Convention was created to ensure there is “an
international convention on diplomatic intercourse” to
“contribute to the development of friendly relations among
nations, irrespective of their differing constitutional and
social systems”). As the government stresses here, the
Convention “serves to protect United States diplomats

19a
Appendix A
abroad, which is a critical national interest of the United
States.” Gov’t Br. 6. An interpretation that renders the
standard governing the end of diplomatic immunity
uncertain would provide less protection to diplomats and
the nations they represent and could undermine reciprocal
treatment of American diplomats abroad.
Finally, although the State Department has some
discretion over questions of diplomatic immunity even
within the terms of the Convention,8 the government
does not suggest that 'such discretion was exercised here
to deny Muthana diplomatic immunity before notification
of his termination and thereby to recognize Hoda’s
citizenship by birth. To the contrary, the government
maintains that at the time of Hoda’s birth, Muthana
continued to enjoy diplomatic privileges and immunities.
In addition to its certification, the government presented
several contemporaneous records corroborating that
Muthana had diplomatic status after Hoda’s birth. For
example, it presented a file from the U.N. Office of Protocol
reflecting that Muthana’s diplomatic status continued until
February 6, 1995. S.A. 109. The government maintains
that the issuance of a passport to Hoda in 2005 and 2014
was in error. It would seem far afield of the judicial role to
convert a government error into an exercise of executive
discretion in the sensitive arena of diplomatic relations.
8. For example, the Diplomatic Relations Act vests the
President with the authority to “specify [diplomatic privileges]
... which result in more favorable treatment or less favorable
treatment than is provided under the Vienna Convention,” and he
may do so “on the basis of reciprocity and under such terms and
conditions as he may determine.” 22 U.S.C. § 254c(a).

20a
Appendix A
Consistent with historical practice, the Vienna
Convention explicitly recognizes that diplomatic functions
continue until notification of termination to the host country
and that immunity is maintained for some “reasonable
period” after such notification. We therefore hold that
Muthana’s diplomatic immunity continued at least until the
United States was notified of his termination by Yemen.
B.
Whether Hoda and John Doe are citizens depends
on whether Muthana enjoyed diplomatic immunity at
the time of Hoda’s birth. Under the Vienna Convention,
the question turns on one dispositive fact: when was
the United States notified that Muthana was no longer
a diplomat? The State Department certified to the
district court that the United States received notice of
Muthana’s termination on February 6,1995. The district
court accepted this certification as conclusive proof that
Muthana had diplomatic immunity when his daughter
was born in October 1994. Muthana attempts to rebut
this conclusion by relying on a document obtained
when applying for Hoda’s passport. That letter states
Muthana was “notified to the United States Mission” as
a diplomat from October 15,1990, to September 1,1994.
In light of more than a century of binding precedent that
places the State Department’s formal certification of
diplomatic status beyond judicial scrutiny, we conclude
the certification is conclusive and dispositive evidence
as to the timing of Muthana’s diplomatic immunity. With
no dispute of material fact, summary judgment for the
government was appropriate.

21a
Appendix A
The Constitution vests the President with the
sole power to “receive Ambassadors and other public
Ministers.” U.S. Const, art. II, § 1 (“The executive
Power shall be vested in a President of the United States
of America.”), § 3 (“[H]e shall receive Ambassadors
and other public Ministers.”). The Reception Clause
recognizes the President’s authority to determine the
status of diplomats, a fact long confirmed by all three
branches. See, e.g., Crimes Act of 1790 ch. IX § 25, 1
Stat. 112,117-18; Presidential Power to Expel Diplomatic
Personnel from the United States, 4A Op. O.L.C. 207,
208-09 (Apr. 4, 1980); In re Baiz, 135 U.S. 403, 432, 10
S. Ct. 854, 34 L. Ed. 222 (1890). Just as the President is
vested with the “exclusive” power to recognize foreign
governments, Zivotofsky ex rel. Zivotofsky v. Kerry, 576
U.S. 1, 17, 135 S. Ct. 2076, 192 L. Ed. 2d 83 (2015), his
“action in ... receiving ... diplomatic representatives is
conclusive on all domestic courts,” Guar. Tr. Co. of N.Y.
v. United States, 304 U.S. 126, 138, 58 S. Ct. 785, 82 L.
Ed. 1224 (1938).
Recognizing the vesting of these diplomatic powers
with the President, courts have afforded conclusive
weight to the Executive’s determination of an individual’s
diplomatic status. See In re Baiz, 135 U.S. at 432 (Courts
may not “sit in judgment upon the decision of the executive
in reference to the public character of a person claiming
to be a foreign minister.”). Justice Bushrod Washington,
riding circuit, explained why the Constitution compels
this rule:

22a
Appendix A
The constitution of the United States having
vested in the president the power to receive
ambassadors and other public ministers, has
necessarily bestowed upon that branch of
the government, not only the right, but the
exclusive right, to judge of the credentials of
the ministers so received; and so long as they
continue to be recognized and treated by the
president as ministers, the other branches of
the government are bound to consider them
as such.
United States v. Ortega, 27 F. Cas. 359, 361, F. Cas.
No. 15971 (C.C.E.D. Pa. 1825) (Washington, J.). This
understanding has survived to the present day. See
Carrera v. Carrera, 174 F.2d 496, 497-98, 84 U.S. App.
D.C. 333 (D.C. Cir. 1949); Zdravkovich v. Consul Gen.
of Yugoslavia, 1998 U.S. App. LEXIS 15466, 1998 WL
389086, at *1 (D.C. Cir. June 23,1998) (“The courts are
required to accept the State Department’s determination
that a foreign official possesses diplomatic immunity from
suit.”).9
In litigation implicating the status of diplomats, the
courts and the Executive have developed a practice in
9. This view is also uniformly maintained by our sister
circuits. See, e.g., United States v. Al-Hamdi, 356 F.3d 564, 568,
573 (4th Cir. 2004); Abdulaziz v. Met. Dade County, 741 F.2d 1328,
1331 (11th Cir. 1984); United States v. Lumumba, 741 F.2d 12,15
(2d Cir. 1984) (“[RJecognition by the executive branch—not to
be second-guessed by the judiciary—is essential to establishing
diplomatic status.”).

23a
Appendix A
which the Executive submits a certification of a diplomat’s
status to the court. For example, in Carrera, we explained
that the Executive’s certification of immunity is entitled
to conclusive weight when it is “transmitted to the district
judge” by the State Department: “It is enough that an
ambassador has requested immunity, that the State
Department has recognized that the person for whom it
was requested is entitled to it, and that the Department’s
recognition has been communicated to the court.” 174
F.2d at 497. We noted that this was the process that was
“approved by the Supreme Court in In re Baiz” Id.; see
also United States v. Al-Hamdi, 356 F.3d 564, 569 (4th
Cir. 2004); Abdulaziz v. Met. Dade County, 741 F.2d
1328, 1330-31 (11th Cir. 1984); 4A Op. O.L.C. at 208-09.
In this case, the State Department has submitted under
this longstanding process a formal certification that the
United States was notified of Muthana’s termination from
his diplomatic position on February 6,1995.
In response, Muthana argues that the certification
is not conclusive as to the dates of immunity because
• the district court was required to weigh the additional
evidence he submitted, which he claims at least creates
a dispute of material fact sufficient to prevent summary
judgment. Specifically, Muthana attached a 2004 letter
from Russell Graham (the “Graham Letter”), in which
the United States Mission to the United Nations informed
the Bureau of Citizenship and Immigration Services that
Muthana was “notified to the United States Mission”
as a diplomat from October 15, 1990, to September 1,
1994. Muthana argues that the district court should have
given more weight to the Graham Letter than the State

24a
Appendix A
Department’s certification, which was produced twenty
years after Hoda’s birth and after this lawsuit was filed.
Because the Graham Letter was dated from before Hoda
received her passport, Muthana suggests the Letter
demonstrates that the State Department understood he
was not in a diplomatic role when Hoda was born.
Even on its own terms, however, the Graham Letter
creates no dispute over the relevant legal fact of when the
United States was notified of Muthana’s termination. The
Graham Letter notes only two dates: Muthana’s date of
appointment as a diplomat, October 15,1990, and his date
of termination, September 1, 1994. The Graham Letter
merely addresses the duration of Muthana’s diplomatic
position and when it was terminated. The Graham Letter
says nothing about when the United States was notified of
Muthana’s termination and therefore when his diplomatic
immunity ended.
In any event, we must accept the State Department’s
formal certification to the Judiciary as conclusive proof
of the dates of diplomatic immunity. See, e.g., Carrera,
174 F.2d at 497. The Executive’s determination cannot
be attacked by “argumentative or collateral proof.” See
In re Baiz, 135 U.S. at 432. When a diplomat has been
recognized by the Executive, “the evidence of those facts
is not only sufficient, but in our opinion, conclusive upon
the subject of his privileges as a minister.” Ortega, 27
F. Cas. at 362. See also Carrera, 174 F.2d at 498 (“[T]he
Secretary having certified Carrera’s name as included in
the list, judicial inquiry into the propriety of its listing
was not appropriate.”); Al-Hamdi, 356 F.3d at 573

25a
Appendix A
(explaining that the State Department’s certification “is
conclusive evidence as to [] diplomatic status”). The State
Department made a formal certification in this case, and
it cannot be undermined by collateral evidence such as
the Graham Letter, a document of unknown provenance
that Muthana attached to his complaint.
By accepting the certification as conclusive, we decline
to second-guess the Executive’s recognition of diplomatic
status. If courts could rely upon extrinsic evidence
submitted by private parties to impeach the credibility of
the Executive’s formal certification, the certification would
not be conclusive, and the courts father than the Executive
would have the final say with respect to recognizing a
diplomat’s immunity.10 See United States v. Pink, 315 U.S.
203, 230, 62 S. Ct. 552, 86 L. Ed. 796 (1942) (“We would
usurp the executive function if we held that that [the
recognition] decision was not final and conclusive in the
courts.”). The district court properly held that the State
Department’s certification is conclusive proof of the dates
of Muthana’s immunity and declined Muthana’s request to
look behind the certification or to order discovery.
10. Contrary to the concurring opinion, the State Department
argued that its certification was “conclusive” and “dispositive.”
Gov’t Br. 30-31. When discussing the effect of the Graham Letter
at oral argument, the State Department argued that, “under
Baiz,” its certification “ha[s] a special status here.” Oral Arg.
Tr. 25:3-4; see also Oral Arg. Tr. 17:1-3. Indeed, the Department
advanced in its brief the argument the court adopts today: “Under
established law that has been consistent for over a century, when
the Department of State certifies the diplomatic status of an
individual, the courts are bound to accept that determination.”
Gov’t Br. 25 (citation and quotation marks omitted).

26a
Appendix A
Under the Vienna Convention, immunity continues
at least until notification of termination, and the State
Department here certified to the district court that
notification of Muthana’s termination occurred on
February 6, 1995. Thus, Muthana possessed diplomatic
immunity when his daughter was born in October 1994.
As a consequence, Hoda Muthana was not born “subject to
the jurisdiction” of the United States and is not a citizen
by birth under the Fourteenth Amendment. See Nikoi,
939 F.2d at 1066. This also means that John Doe did not
acquire citizenship based on parentage under 8 U.S.C.
§ 1401(g), since neither of his parents was a U.S. citizen
when he was born.
C.
Muthana also seeks equitable relief. He maintains
that the government should be equitably estopped from
“stripping” Hoda of her U.S. citizenship. He contends the
State Department previously determined that Muthana’s
diplomatic post terminated prior to Hoda’s birth when
it issued her a passport in 2005, recognizing her right
to citizenship by birth.11 Muthana also highlights the
11. Muthana sensibly does not rest his argument solely on the
State Department’s issuance and subsequent revocation of Hoda’s
passport. As Muthana acknowledges, a passport “does not confer
citizenship upon its recipient.” Hizam v. Kerry, 747 F.3d 102,109
(2d Cir. 2014). The Secretary of State is authorized to “cancel any
United States passport... if it appears that such document was ...
erroneously obtained from ... the Secretary,” 8 U.S.C. § 1504(a),
and the State Department cancelled Hoda’s passport in 2016.
Thus, the State Department’s issuance, renewal, and revocation
of Hoda’s passport cannot settle her claim to citizenship.

27a
Appendix A
unfairness created by the State Department’s issuance
and subsequent revocation of Hoda’s passport. He explains
that, had he known Hoda was not born a U.S. citizen, he
would have pursued the naturalization process for her,
as he did for himself, his wife, and their other children.
Although Muthana may have had a good faith
understanding that his daughter acquired citizenship at
birth, an error initially shared by the State Department,
the law affords Muthana no relief. As we have explained,
Hoda has never been a U.S. citizen and therefore the State
Department revoked her passport, but could not strip her
of a citizenship she never lawfully enjoyed. Even if the
State Department previously recognized Hoda as a citizen
as Muthana contends, the Executive can only recognize
lawful citizenship, and Hoda did not acquire citizenship
at birth because her parents had diplomatic immunity.
We cannot now order the State Department to recognize
Hoda’s citizenship, because she is not a citizen under the
Constitution or laws of the United States. The Executive
has no authority to confer citizenship on Hoda outside of
the naturalization rules created by Congress.12
12. The Constitution vests the exclusive power “[t]o establish
an uniform Rule of Naturalization” in Congress. U.S. CONST,
art. I, § 8; Chirac v. Chirac’s Lessee, 15 U.S. 259, 269, 4 L. Ed.
234 (1817) (Marshall, C.J.) (“[T]he power of naturalization is
exclusively in congress.”). The Executive cannot unilaterally
confer citizenship. Congress may, however, grant citizenship
through private bills, which are generally reserved for “cases that
are of such an extraordinary nature that an exception to the law
is needed.” H.R. Comm, on the Judiciary, Subcomm. on Immigr. &
Citizenship, 116th Cong., Rules of Proc. & Statement of Pol’y
for Priv. Immigr. Bills, at 3 (2019).

28a
Appendix A
Nor do the courts have an equitable power to grant
citizenship. “Neither by application of the doctrine of
estoppel, nor by invocation of equitable powers, nor by
any other means does a court have the power to confer
citizenship in violation of these limitations.” INS v.
Pangilinan, 486 U.S. 875,885,108 S. Ct. 2210,100 L. Ed.
2d 882 (1988); Fedorenko v. United States, 449 U.S. 490,
506, 101 S. Ct. 737, 66 L. Ed. 2d 686 (1981) (“Congress
alone has the constitutional authority to prescribe rules
for naturalization”) (citing U.S. Const, art. I, § 8). Having
held that Hoda is not a citizen under the Fourteenth
Amendment and her son is not a citizen under 8 U.S.C.
§ 1401(g), we cannot confer citizenship through equity.
* * *

For the foregoing reasons, we affirm the district
court’s conclusion that Hoda Muthana and her son are
not, and never have been, citizens of the United States.
IV.
Having held that Hoda and her son are not citizens,
the district court properly denied Muthana’s mandamus
petition. Rather than grant the government summary
judgment on this count, however, the district court should
have dismissed Muthana’s mandamus claims for lack of
subject matter jurisdiction. Under 28 U.S.C. § 1361, “[a]
court may grant mandamus relief only if: (1) the plaintiff
has a clear right to relief; (2) the defendant has a clear
duty to act; and (3) there is no other adequate remedy
available to plaintiff.” Baptist Mem’l Hosp. v. Sebelius,

29a
Appendix A
603 F.3d 57, 62, 390 U.S. App. D.C. 251 (D.C. Cir. 2010)
(cleaned up). “These three threshold requirements are
jurisdictional; unless all are met, a court must dismiss the
case for lack of jurisdiction.” Aw. Hosp. Ass’nv. Burwell,
812 F.3d 183,189,421 U.S. App. D.C. 123 (D.C. Cir. 2016).
Thus, “mandamus jurisdiction under § 1361 merges with
the merits.” Lovitky v. Trump, 949 F.3d 753, 759, 445
U.S. App. D.C. 186 (D.C. Cir. 2020) (citation and quotation
marks omitted).
Muthana sought a writ of mandamus obligating the
United States to use all available means to return his
daughter and grandson to the United States. To do so,
he asked the court to “order the government to affect her
return to the United States, including but not limited to
the use of military or other government aircraft.” Pl.’s
Mem. in Support 21, Muthana v. Pompeo, No. l:19-cv00445-RBW (D.D.C. Mar. 1,2019), ECF No. 15. Not even
citizens have a clear right to assistance from the U.S.
government in coming to U.S. territory, so aliens certainly
have none. Accordingly, Hoda and her son lack any right
to this relief. We therefore remand this claim and direct
the district court to dismiss Muthana’s mandamus petition
for lack of subject matter jurisdiction.
y.
Finally, the district court correctly dismissed for lack
of standing Muthana’s claim for a declaratory judgment
that he would not violate the prohibition on providing
material support for terrorism if he sent money and
supplies to his daughter and grandson. See 18 U.S.C.

30a
Appendix A
§ 2339B. In pursuing this claim, Muthana proceeded
in his personal capacity rather than as next friend to
his daughter and grandson. The district court held
that he lacked standing because he failed to identify a
personal constitutional right that would be affected by
the enforcement of the statutory prohibition on providing
material support for terrorism. We agree.
To establish standing for a pre-enforcement challenge,
a plaintiff must demonstrate first “an intention to
engage in a course of conduct arguably affected with a
constitutional interest, but proscribed by a statute” and,
second, that “there exists a credible threat of prosecution
thereunder.” Susan B. Anthony List v. Driehaus, 573 U.S.
149,159,134 S. Ct. 2334,189 L. Ed. 2d 246 (2014) (citation
and quotation marks omitted). Muthana’s claim fails under
the first requirement because he did not allege that the
material support statute was unconstitutional as applied
to his intended conduct. Instead, he argued that he would
not violate the statute by sending support to Hoda because
she was no longer engaged in terrorist activity.
Preenforcement review is not a vehicle to settle
questions of statutory interpretation unconnected with
matters of constitutional right. Instead, pre-enforcement
review is limited and appropriate only to relieve a
plaintiff from the necessity of “first exposing] himself
to actual arrest or prosecution” before he can “challenge
[the] statute that he claims deters the exercise of his
constitutional rights.” Steffel v. Thompson, 415 U.S. 452,
459, 94 S. Ct. 1209, 39 L. Ed. 2d 505 (1974). The district
court properly rejected Muthana’s standing to seek review
of the applicability of the material support statute absent

31a
Appendix A
a claim of constitutional right.13 Accordingly, we affirm
the dismissal of this count for lack of subject matter
jurisdiction.
* * *

Muthana focuses his lawsuit on the hardship resulting
from the revocation of his daughter’s passport and the
State Department “stripping away” her citizenship.
Yet Hoda was not born a United States citizen because
her father possessed diplomatic immunity when she
was born and therefore she was not born subject to the
jurisdiction of the United States. See U.S. Const, amend.
XIV, § 1. Hoda’s son, who was born abroad to two non­
citizen parents, could not have acquired citizenship. See
8 U.S.C. § 1401(g). Therefore, we affirm in part the grant
of summary judgment to the government because neither
Hoda Muthana nor John Doe have ever been citizens of the
United States. We also affirm the district court’s dismissal
for lack of jurisdiction of Muthana’s claim for pre­
enforcement review of the material support for terrorism
statute. Because the district court lacked jurisdiction
over Muthana’s petition for a writ of mandamus, it must
be dismissed on remand.
So ordered.
' 13. For the first time on appeal, Muthana argues that the
material support statute unconstitutionally burdens his right to
free association. Because it is “not the province of an appellate
court to hypothesize or speculate about the existence of an injury
Plaintiff did not assert to the district court,” we decline to consider
this new theory of standing on appeal. Huron v. Cobert, 809 F.3d
1274,1280, 420 U.S. App. D.C. 455 (D.C. Cir. 2016) (cleaned up).

32a
Appendix A
Tatel, Circuit Judge, concurring in the judgment:
Although this case touches on a critical provision of the
Fourteenth Amendment—the “Jurisdiction Clause”—it
could have been resolved on the most routine of grounds.
Both parties agree that this dispute turns on when the
United States Mission received “notification” of Ahmed
Ali Muthana’s termination from his role as a diplomat with
the Yemeni Mission to the United Nations. If the United
States Mission received that notification before Muthana’s
daughter’s birth in October 1994, she is a citizen of the
United States; otherwise, she is not.
The record contains two documents purporting to
speak to Muthana’s diplomatic tenure: a 2004 letter from
Russell Graham stating that Muthana was “notified to the
United States Mission” as a diplomat from October 15,
1990, to September 1,1994, and a 2019 letter from James
Donovan stating that Muthana and his family possessed
diplomatic immunity until February 6,1995. But as even
this court agrees, Majority Op. at 21-22, nothing in the
Graham letter contradicts the Donovan letter’s statement
that the United States received notification of Muthana’s
termination on February 6,1995. We therefore could have
easily resolved this case on the ground that there is no
genuine issue of material fact as to the date of notification,
just as the government argued in the district court, just
as Judge Walton concluded, and just as the government
urges here. Indeed, we could have done so by judgment.
Yet the court reaches out to affirm on the basis of an
argument not raised by the government and not surfaced
by the court at oral argument: that we must ignore the
Graham letter entirely and look to the contents of the

33a
Appendix A
Donovan letter alone because that is the document the
executive branch “formally” transmitted to the court
in the course of litigation. Such a holding is not only
unnecessary, but wrong.
The court begins its analysis with “a century of
binding precedent that places the State Department’s
formal certification of diplomatic status beyond judicial
scrutiny.” Majority Op. at 19. So far so good. Over a
century ago, the Supreme Court announced in In re
Baiz, 135 U.S. 403, 10 S. Ct. 854, 34 L. Ed. 222 (1890),
that because “we do not assume to sit in judgment upon
the decision of the executive in reference to the public
character of a person claiming to be a foreign minister,”
“the certificate of the Secretary of State ... is the best
evidence to prove the diplomatic character of a person.”
Id. at 432,421 (emphasis added). Were the Donovan letter
the only State Department certification in the record, that
uncontroversial statement of law would make this an even
easier case.
The problem, of course, is that the record contains not
one but two documents purporting to be certifications.
Both the Graham and Donovan documents appear on
the letterhead of the United States Mission, carry the
United States seal, and bear the signature of the Minister
Counselor for Host Country Affairs. Both, moreover,
contain the same opening words: “This is to certify that
.. . .” Joint Appendix 12,18 (emphasis added). Based on
only the four corners of the two documents, both would
appear to qualify as the “best evidence to prove the
diplomatic character of a person.”

34a
Appendix A
The court sidesteps the problem of dueling
certifications by describing the Donovan document as a
“formal certification to the Judiciary” submitted to the
court pursuant to a “longstanding process.” Majority Op.
at 21-22. But the court never explains why the Donovan
document, and not the Graham document, is “formal”
despite both bearing the same indicia of institutional
legitimacy. Nor does the court point to any evidence,
record or otherwise, that a longstanding formal procedure
for communicating the Executive’s view of diplomatic
status to the court exists. Instead, it simply assumes that
the way such information reached the court in a handful of
prior cases reflects a longstandingformal procedure. But
those decisions describe only the facts before the court in
each, not any formal procedure.
Without saying so outright, the court appears to adopt
a novel rule: that the term “certification” somehow refers
only to a “formal certification to the Judiciary” submitted
by the Executive in connection with litigation. Majority
Op. at 22. That rule suffers from two major flaws.
First, the government nowhere advances the court’s
theory—not in its brief and not at oral argument. See
Carducci v. Regan, 714 F.2d 171,177,230 U.S. App. D.C. 80
(D.C. Cir. 1983) (“The premise of our adversarial system
is that appellate courts do not sit as self-directed boards
of legal inquiry and research, but essentially as arbiters
of legal questions presented and argued by the parties
before them.”). To be sure, as my colleagues observe,
Majority Op. at 22 n.10, the government does contend that
the Donovan letter was “conclusive” and “dispositive.”

35a
Appendix A
Appellees’ Br. 30-31. But the government does not contend
that the Donovan letter was the sole “certification,” and
thus “dispositive,” by virtue of the Executive submitting
it to the court during this case. The court nonetheless claims to divine such an argument from the government’s
statement that “when the Department of State certifies the
diplomatic status of an individual, the courts are bound to
accept that determination.” Majority Op. at 22 n.10. That
statement, however, says nothing about what makes one
document and not another a “certification”—the critical
question here—and certainly says nothing to suggest that
submission during the course of litigation is dispositive.
The government simply declares that the Donovan letter
“ends the factual inquiry into Plaintiff’s diplomatic status
at the time of [his daughter’s] birth,” Appellees’ Br. 25-26,
before going on to argue that the Graham letter “failed to
... refute th[e] date” contained in the Donovan document,
id. at 31.1 think it especially unwise to adopt a rule that
turns on government submission of a document when the
government itself advances no such rule.
Second, no case supports the court’s new rule.
Although the court seeks to house its theory in In re
Baiz, 135 U.S. 403, 10 S. Ct. 854, 34 L. Ed. 222 (1890),
and Carrera v. Carrera, 174 F.2d 496, 84 U.S. App. D.C.
333 (D.C. Cir. 1949), neither case speaks to how a court
differentiates between two seemingly authentic State
Department documents. To be sure, the Court held in In
re Baiz that “the certificate of the Secretary of State ...
is the best evidence to prove the diplomatic character of
a person.” 135 U.S. at 421 (emphasis added). But in that
case, the Court rejected the petitioner’s claim to immunity

36a
Appendix A
because there was no certification at all, so the question
of submission was not before the Court. And in Carrera,
the plaintiff challenged the only purported certification on
the ground that it was submitted ex parte and therefore
“not properly presented to the District Court.” 174 F.2d
at 497. Rejecting that argument, our court held that
“the process by which the claim of immunity . . . was
communicated to the court” was proper. Id. Carrera, in
other words, suggests that a court can consider a State
Department certification (which, per In re Baiz, is the
“best evidence” of diplomatic status) no matter how that
certification makes its way to the district court. Nothing in
either opinion suggests that submission by the government
during litigation somehow elevates one authentic State
Department document over another; the issue was just
not before either court.
Nor do decisions citing In re Baiz and Carrera
address the issue of dueling documents. In Abdulaziz
v. Metropolitan Dade County, 741 F.2d 1328 (11th Cir.
1984), for example, the Eleventh Circuit relied on a State
Department certification and rejected the argument that
it should conduct an independent inquiry into whether
the individual fell outside the protections of the Vienna
Convention, or “was apparently eligible for, but had not
been granted diplomatic status at the time he initiated
[suit].” Id. at 1331. In United States v. Al-Hamdi, 356 F.3d
564 (4th Cir. 2004), the Fourth Circuit likewise concluded
that, having been presented with a “State Department^
certification . . . based on a reasonable interpretation of
the Vienna Convention,” the court would “not review the
State Department’s factual determination that, at the

\

37a
Appendix A
time of his arrest, Al-Hamdi fell outside of the immunities
of the Vienna Convention.” Id. at 571, 573. Neither case
addressed the question we face here: what to do when
there are two state department documents purporting
to address diplomatic status.
Of course, our review is limited in this sensitive
arena. Article II of the Constitution gives the President
the power to “receive Ambassadors and other public
Ministers,” which is precisely why the Supreme Court
- crafted the “best evidence” rule in In re Baiz: to prevent
the judiciary from “sit[ting] in judgment upon the decision
of the executive in reference to the public character of a
person claiming to be a foreign minister.” 135 U.S. at 432.
Nothing in the Constitution or case law, however, requires
that we credit the Executive’s litigating position to the
exclusion of all other Executive evidence, no matter how
authoritative.
Under the court’s new rule, had Muthana produced
a document identical to Donovan’s letter in every way
except for stating “this is to certify that the United
States Mission received notification not in February 1995,
but in July 1994,” it would have been improper to even
consider that evidence. The case law does not require
such a result, the government does not seek it, and we can
straightforwardly resolve this case on the same ground
Judge Walton did—that “the Graham certification . . .
speak[s] to the date of [Muthana’s] termination..., not the
date when the United States Mission was notified of [his]
termination.” Muthana v. Pompeo, No. 19-cv-00445,2019
U.S. Dist. LEXIS 218098, at *31 (D.D.C. Dec. 17,2019).

38a
APPENDIX B — REDACTED OPINION OF THE
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF COLUMBIA, FILED
DECEMBER 17,2019
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Action No. 19-445 (RBW)
AHMED ALI MUTHANA, INDIVIDUALLY,
AND AS NEXT FRIEND OF HODA MUTHANA
AND MINOR JOHN DOE,

Plaintiff,
v.
MICHAEL POMPEO, IN HIS OFFICIAL
CAPACITY AS SECRETARY OF THE
DEPARTMENT OF STATE, et al.,
Defendants.
December 9,2019, Decided
December 17, 2019, Filed
UNDER SEAL
MEMORANDUM OPINION
The plaintiff, Ahmed Ali Muthana, brings this civil
action individually and as the next friend of his daughter,
Hoda Muthana, and minor grandson, John Doe, against

39a
Appendix B
the defendants, Michael Pompeo, in his official capacity
as the Secretary of the United States Department of
State (“the “State Department”); Donald J. Trump,
in his official capacity as the President of the United
States; and William Barr, in his official capacity as the
Attorney General of the United States (collectively, the
“defendants”), seeking expedited declaratory, injunctive,
and mandamus relief, see Expedited Complaint for
Declaratory Judgment, Injunctive Relief and Petition
for Writ of Mandamus (“Compl.” or the “Complaint”) II1,
in his attempt to have the Court order that his daughter
and grandson be permitted to enter the United States
and that he be permitted to provide financial support to
them while they are in Syria.
After denying the plaintiff’s first request for
expedited consideration of the relief requested by the
plaintiff on March 11, 2019, see Order at 4 (Mar. 11,
2019), ECF No. 18, on November 14, 2019, the Court
granted the Plaintiff’s Renewed Motion for Expedited
Ruling (“Pl/s Mot.” or the “renewed motion for expedited
consideration”) and granted in part and denied in part the
defendants’ Motion to Dismiss or, in the Alternative, for
Partial Summary Judgment (“Defs.’ Mot.” or the “motion
to dismiss”),1 see Order at 1-2 (Nov. 15, 2019), ECF No.
1. In addition to the filings already identified, the Court
considered the following submissions in rendering its decision:
(1) the Declaration of James B. Donovan (“Donovan Decl.”); (2)
the Brief of Amicus Curiae Center for Immigration Studies in
Support of Defendants/Respondents (“CIS Brief”); (3) the Brief
of Amicus Curiae Immigration Reform Law Institute in Support
of Defendants (“IRLI Brief”); (4) the Plaintiffs Memorandum

40a
Appendix B
30. This Memorandum Opinion provides the legal basis
for the Court’s November 15,2019 Order.
I. BACKGROUND
According to the plaintiff, “[pjrior to his daughter’s
birth, [the plaintiff] worked as a diplomat for the United
Nations.” Compl. K 18. However, “[o]n June 2, 1994, the
Yemeni Ambassador Al-Aashtal required [the plaintiff]
to surrender his diplomatic identity card.” Id. Thereafter,
his daughter, Hoda Muthana, was born in New Jersey on
1994. See id. H 20. The plaintiff initially
applied for a United States passport for his daughter
in 2004. See id. H 21. The State Department “initially
questioned whether Ms. Muthana was eligible for a
[United States] passport, based on [its] records showing
her father’s diplomatic status remained in effect until
February 6, 1995,” but after the plaintiff provided the
State Department with a letter “confirm[ing] that the
diplomatic status he had due to his employment at the
[United Nations] was terminated prior to the time of Ms.
Muthana’s birth,” Ms. Muthana’s passport application was
granted. Id.

of Law in Opposition to Defendants’ Motion to Dismiss or in the
Alternative Motion for Partial Summary Judgment (“Pl.’s Opp’n”);
(5) the first Declaration of Ahmed Ali Muthana (May 10,2019) (“1st
Muthana Decl.”); (6) the Reply in Support of Defendants’ Motion
to Dismiss or, in the Alternative, for Partial Summary Judgment
(“Defs.’ Reply”); (7) the Plaintiffs Renewed Motion for Expedited
Ruling (“Pl.’s Mot.”); and (8) the second Declaration of Ahmed Ali
Muthana (Oct. 31, 2019) (“2d Muthana Decl.”).

41a
Appendix B
In November 2014, Ms. Muthana withdrew from the
university she was attending in Alabama and traveled
to Syria. See id. 11 22. “After arriving in Syria, Ms.
Muthana made her way into [Islamic State in Iraq and
Syria (‘ISIS’)]-controlled territory.” Id. 1123. She married
twice and had a son, John Doe, by her second husband. Id.
111123-24. “On January 15,2016, the United States issued a
letter addressed to Ms. Muthana at her parents’ residence,
purporting to revoke her passport under 22 C.F.R. [§] 51.7
and 51.66[,]”
asserting] for the first time that because the
[United States] Permanent Mission to the
United Nations [the (“United States Mission”)],
Host Country Affairs Section, had not been
officially notified of [the plaintiffs] termination
until February 6,1995, [Ms. Muthana] was not
“within the jurisdiction of the United States”
at the time of her birth, and therefore [is]
not a United States citizen pursuant to the
Fourteenth Amendment to the Constitution.
Id. H 25.
In December 2018, “Ms. Muthana fled ISIS-controlled
territory,” id. 11 30, and “subsequently surrendered to
Kurdish forces, who transferred her to Camp al-Hawl
in northeast Syria,” id. 11 31. On January 15, 2019,
the plaintiff’s counsel wrote a letter to the United
States Attorney for the Northern District of Alabama,
“communicating [Ms. Muthana’s] desire to return [to the
United States] as well as her willingness to surrender to

42a
Appendix B
United States authorities for any contemplated charges.”
Id. H 33.
On February 20,2019, the... State Department
declared on its website that “Ms. Hoda Muthana
is not a [United States] citizen and will not be
admitted into the United States. She does not
have any legal basis, no valid [United States]
passport, no right to a passport, nor any visa
to travel to the United States.”
Id. f 35. That same day, President Trump “tweeted that
T have instructed Secretary of State Mike Pompeo, and
he fully agrees, not to allow Hoda Muthana back into
the Country!’” Id. 1f 36. Ms. Muthana and her son are
“currently detained in Syria by Kurdish forces at Camp
Roj, after being transferred from Camp al-Hol (also
spelled al-Hawl).” Pl.’s Mot. at 2.
On February 21, 2019, the plaintiff instituted this
civil action against the defendants, seeking expedited
consideration “because of the precarious position of
[the] [p]laintiff[’s] [ ] daughter and grandson at Camp
al-Hawl in Syria, under the authority of Kurdish forces”
and the President’s “intent to withdraw [United States]
forces from the Syrian conflict.” Compl. 1115. On March
4, 2019, the Court denied the plaintiff’s first request for
expedited relief. See Order at 4 (Mar. 11,2019), ECF No.
18. Thereafter, on April 26,2019, the defendants filed their
motion to dismiss. See Defs.’ Mot. at 1. On November 1,
2019, the plaintiff filed his renewed motion for expedited
consideration, “re-urg[ing] the need for expedited relief

43a
Appendix B
in this matter, based on updated circumstances and
newly discovered facts[,]” Pl.’s Mot. at 1, and the Court
subsequently scheduled a hearing on the defendants’
motion to dismiss, see Min. Order (Nov. 5, 2019). At the
hearing on November 14, 2019, the Court granted the
plaintiffs renewed motion for expedited consideration
and granted in part and denied in part the defendants’
motion to dismiss. See Order at 1 (Nov. 15,2019), ECF No.
30. These motions are the subject of this Memorandum
Opinion.
II. STANDARDS OF REVIEW
A. Motion for Expedited Consideration
Temporary restraining orders and preliminary
injunctions2 are “extraordinary remedies] that should be
granted only when the party seeking the relief, by a clear
showing, carries the burden of persuasion.” Chaplaincy of
Full Gospel Churches v. Eng., 454 F.3d 290,297,372 U.S.
App. D.C. 94 (D.C. Cir. 2006) (quoting Cobell v. Norton,
391 F.3d 251, 258, 364 U.S. App. D.C. 2 (D.C. Cir. 2004)).
In determining whether to issue a temporary restraining
order or preliminary injunction, see Hall v. Johnson,
599 F. Supp. 2d 1, 3 n.2 (D.D.C. 2009) (noting that the
2. As the Court previously explained, although the plaintiff
does not fashion his renewed request for expedited consideration
of this case in the form of a motion for a temporary restraining
order or preliminary injunction, the Court finds it appropriate to
apply the same framework used to evaluate those types of motions
to requests for expedited consideration. See Order at 3 (Mar. 11,
2019), ECF No. 18.

\

44a
Appendix B
same standard applies to both), a plaintiff must establish
“[(1)] that he is likely to succeed on the merits, [(2)] that
he is likely to suffer irreparable harm in the absence of
preliminary relief, [(3)] that the balance of equities tips
in his favor, and [(4)] that an injunction is in the public
interest,[,]” Sherley v. Sebelius, 644 F.3d 388, 392, 396
U.S. App. D.C. 1 (D.C. Cir. 2011) (quoting Winter v. Nat.
Res. Def. Council, Inc., 555 U.S. 7,20,129 S. Ct. 365,172
L. Ed. 2d 249 (2008)).
B. Rule 12(b)(1) Motion to Dismiss
“Federal [district] courts are courts of limited
jurisdiction^]” Kokkonen v. Guardian Life Ins. Co. of
Am., 511 U.S. 375,377,114 S. Ct. 1673,128 L. Ed. 2d 391
(1994), and “[a] motion for dismissal under [Federal Rule of
Civil Procedure] 12(b)(1) ‘presents a threshold challenge to
the [C]ourt’s jurisdiction[,]”’ Morrow v. United States, 723
F. Supp. 2d 71,75 (D.D.C. 2010) (Walton, J.) (quoting Haase
v. Sessions, 835 F.2d 902, 906, 266 U.S. App. D.C. 325
(D.C. Cir. 1987)). Thus, the Court is obligated to dismiss
a claim if it “lack[s] [ ] subject-matter jurisdiction^]” Fed.
R. Civ. P. 12(b)(1). Because “[i]t is to be presumed that
a cause lies outside [the Court’s] limited jurisdiction,”
Kokkonen, 511 U.S. at 377, the plaintiff bears the burden
of establishing by a preponderance of the evidence that
the Court has subject-matter jurisdiction, see Lujan v.
Defs. of Wildlife, 504 U.S. 555, 561, 112 S. Ct. 2130, 119
L. Ed. 2d 351 (1992).
In deciding a motion to dismiss for lack of subjectmatter jurisdiction, the Court “need not limit itself to

45a
Appendix B
the allegations of the complaint.” Grand Lodge of the
Fraternal Order of Police v. Ashcroft, 185 F. Supp. 2d 9,
14 (D.D.C. 2001). Rather, the “[C]ourt may consider such
materials outside the pleadings as it deems appropriate
to resolve the question [of] whether it has jurisdiction to
hear the case.” Scolaro v. D.C. Bd. ofElections & Ethics,
104 F. Supp. 2d 18,22 (D.D.C. 2000); see Jerome Stevens
Pharms., Inc. v. Food & Drug Admin., 402 F.3d 1249,
1253,365 U.S. App. D.C. 270 (D.C. Cir. 2005). Additionally,
the Court must “assume the truth of all material factual
allegations in the complaint and ‘construe the complaint
liberally, granting [the] plaintiff the benefit of all inferences
that can be derived from the facts alleged.’” Aw. Nat’l Ins.
C o. v. Fed. Deposit Ins. Corp., 642 F.3d 1137,1139, 395
U.S. App. D.C. 316 (D.C. Cir. 2011) (quoting Thomas v.
Principi, 394 F.3d 970,972,364 U.S. App. D.C. 326 (D.C.
Cir. 2005)). However, “the [plaintiff’s factual allegations
in the complaint... will bear closer scrutiny in resolving
a 12(b)(1) motion than in resolving a 12(b)(6) motion for
failure to state a claim.” Grand Lodge, 185 F. Supp. 2d at
13-14 (alterations in original) (internal quotation marks
omitted).
C. Rule 12(b)(6) Motion to Dismiss
A complaint must provide “a short and plain statement
of the claim showing that the pleader is entitled to relief.”
Fed. R. Civ. P. 8(a)(2). Thus, to survive a motion to dismiss
under Rule 12(b)(6) for “failure to state a claim upon
which relief may be granted[,]” Fed. R. Civ. P. 12(b)(6), the
“complaint must contain sufficient factual matter, accepted
as true, to ‘state a claim to relief that is plausible on its

46a
Appendix B
facet,]’” Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct.
1937,173 L. Ed. 2d 868 (2009) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S: 544, 570, 127 S. Ct. 1955,167 L. Ed.
2d 929 (2007)). “A claim has facial plausibility when the
plaintiff pleads factual content that allows the [Cjourt
to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Id. (citing Twombly,
550 U.S. at 556); see Kowal v. MCI Commons Corp., 16
F.3d 1271, 1276, 305 U.S. App. D.C. 60 (D.C. Cir. 1994)
(noting that the plaintiff is entitled to “the benefit of all
inferences that can be derived from the facts alleged”).
Although the Court must accept the facts pleaded as true,
legal allegations devoid of factual support are not entitled
to this presumption. See Kowal, 16 F.3d at 1276. Along
with the allegations made within the four corners of the
complaint, the Court may also consider “any documents
either attached to or incorporated in the complaint and
matters of which [it] may take judicial notice.” Equal
Emp’t Opportunity Comm’n v. St. Francis Xavier
Parochial Sch., 117 F.3d 621, 624, 326 U.S. App. D.C. 67
(D.C. Cir. 1997).
D. Rule 56 Motion for Summary Judgment
The Court must “grant summary judgment if the
movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as
a matter of law.” Fed. R. Civ. R 56(a). When ruling on a
Rule 56 motion for summary judgment, the Court must
view the evidence in the light most favorable to the non­
moving party. See Holcomb v. Powell, 433 F.3d 889, 895,
369 U.S. App. D.C. 122 (D.C. Cir. 2006) (citing Reeves v.

47a
Appendix B
Sanderson Plumbing Prods., Inc., 530 U.S. 133,150,120
S. Ct. 2097, 147 L. Ed. 2d 105 (2000)). The Court must
therefore draw “all justifiable inferences” in the non­
moving party’s favor and accept the non-moving party’s
evidence as true. Anderson v. Liberty Lobby, Inc., All U.S.
242,255,106 S. Ct. 2505,91L. Ed. 2d 202 (1986). The non­
moving party, however, cannot rely on “mere allegations
or denials[.]” Burke v. Gould, 286 F.3d 513, 517, 351 U.S.
App. D.C. 1 (D.C. Cir. 2002) (quoting Anderson, All U.S.
at 248). Thus, “[cjonclusory allegations unsupported by
factual data will not create a triable issue of fact.” Pub.
Citizen Health Research Grp. v. Food & Drug Admin.,
185 F.3d 898, 908,337 U.S. App. D.C. 343 (D.C Cir. 1999)
(Garland, J., concurring) (alteration in original) (quoting
Exxon Corp. v. Fed. Trade Comm’n , 663 F.2d 120,12627, 213 U.S. App. D.C. 356 (D.C. Cir. 1980)). If the Court
concludes that “the non[-]moving party has failed to
make a sufficient showing on an essential element of [its]
case with respect to which [it] has the burden of proof[,]”
then the moving party is entitled to summary judgment.
Celotex Corp. v. Catrett, All U.S. 317,323,106 S. Ct. 2548,
91 L. Ed. 2d 265 (1986).
III. ANALYSIS
The Court will first address the plaintiff’s motion
for expedited consideration and will then address the
defendants’ motion to dismiss or, in the alternative, for
summary judgment.

/

48a
Appendix B
A. The Plaintiff’s Renewed Motion for Expedited
Consideration
The plaintiff seeks “expedited relief in this matter,
based on updated circumstances and newly discovered
facts[.]” Pl.’s Mot. at 1. Specifically, the plaintiff alleges
that “[t]he President of the United States most recently
announced the withdrawal of [United States] troops from
the area” where Ms. Muthana and her son are currently
detained, id. 115, and argues that “the failure of the United
States to urgently facilitate the return of Ms. Muthana
and her son will cause immediate and irreparable harm
by jeopardizing their ability in the future to return to
the United States[,]” id. H 6. The plaintiff further argues
that “Ms. Muthana and Minor John Doe are in immediate
danger of both physical violence and the already fragile
health of Minor John Doe further declining.” Id. 1126.
The Court denied the plaintiffs previous request for
expedited consideration in this matter on the ground that
“the plaintiff ha[d] not submitted any competent evidence
into the record (i.e., affidavits, exhibits) that would permit
the Court to assess whether [his daughter] [and grandson],
in fact, facet] irreparable harm[.]” Order at 4 (Mar. 11,
2019), ECF No. 18 (first alteration in original) (internal
quotation marks omitted). In contrast, the plaintiff has
now submitted evidence into the record demonstrating
that Ms. Muthana and her son face ongoing threats to
their health and safety, including a declaration by the
plaintiff detailing communications with his daughter, see
2d Muthana Peel. Till 11,14 (indicating that

49a

Appendix B

id. 1116 (“My
daughter has also communicated to me that because she
made statements on video since she has been detained
in Syria, which make it clear that she denounces ISIS,
), and
see Pl.’s Mot., Ex. B (
!)

atl

on the
evidence now before the Court, and considering the
perilous conditions that Ms. Muthana and her son are
experiencing, the Court is now satisfied that irreparable
harm does exist.3 See Vo Van Chu v. U.S. Dep’t State, 891

/

3. As to the remaining factors of the expedited consideration
inquiry, the Court finds that expedited consideration of this matter
would not prejudice the defendants in this case or harm the public
at large, and therefore the third and fourth factors, the balance
of the equities and the public interest, weigh in favor of expedited
consideration. As to the first factor, the likelihood of success on
the merits, although the Court ultimately finds that the plaintiff
cannot prevail on the merits in this case, see Part III.B, infra,
it nevertheless concludes that expedited consideration of this
matter is appropriate, considering the demonstrated potential for

50a
Appendix B
F. Supp. 650, 656 (D.D.C. 1995) (“The cumulative effect
of these potential injuries—the ongoing threat to [the
plaintiffs wife’s] health and safety, the ongoing threat of
repatriation, and the strong possibility that, should [the
plaintiffs] be repatriated, she could not secure an exit
visa—is enough the satisfy this Court that irreparable
harm would exist here.”). Accordingly, the Court grants
the plaintiffs renewed motion for expedited consideration.
B. The Defendants’ Motion to Dismiss
In analyzing the defendants’ motion to dismiss,
the Court will first address Counts One to Eight of the
Complaint, which are brought by the plaintiff in his next
'

irreparable injury to Ms. Muthana and her son. See Cigar Ass’n
ofAm. v. U.S. Food & Drug Admin., 317 F. Supp. 3d 555, 560-61
(D.D.C. 2018) (“[T]he Court may grant [the] [plaintiffs’ motion
and issue an injunction if a ‘serious legal question is presented,..
little if any harm will befall other interest persons or the public,
and... denial of the order would inflict irreparable injury on [the]
[plaintiffs].”’ (fourth and fifth alterations in original) (quoting
Wash. Metro. Area Transit Comm’n v. Holiday Tours, Inc., 559
F.2d 841,844,182 U.S. App. D.C. 220 (D.C. Cir. 1977))); see id. at
563 (concluding that low likelihood of success on the merits was
not fatal to the plaintiffs’ motion for an injunction “[b]ecause [the]
[plaintiffs’ appeal presented] serious legal questions on the
merits, and because the likelihood of irreparable harm, the balance
of the equities, and the public interest strongly favor[ed] interim
relief” (internal quotation marks omitted)); Akiachak Native
Cmty. v. Jewell, 995 F. Supp. 2d 7, 14 (D.D.C. 2014) (“find[ing]
that [the plaintiff’s] low likelihood of success on the merits [was]
not fatal to its motion for a stay and injunction” where “the other
factors weighted] heavily in favor of [the plaintiff]”).

51a
Appendix B
friend capacity and relate to Ms. Muthana’s and her son’s
claims to citizenship, and will then address Count Nine,
which is brought by the plaintiff in his individual capacity
and relates to the plaintiff’s request for a declaratory
judgment authorizing him to send money to Ms. Muthana
to facilitate her return to the United States with her son
without incurring liability pursuant to 18 U.S.C. § 2339B
(2018).4
1.

Counts One to Eight

The defendants seek to dismiss Counts One to Eight of
the Complaint pursuant to Federal Rule of Civil Procedure
12(b)(1), arguing that “[t]he Court lacks jurisdiction over
[the] [pjlaintiff’s next-friend claims” because the plaintiff
has provided “no valid reason why [Ms.] Muthana has not
herself brought this action or signed on to the allegations
in the [C]omplaint.” Defs.’ Mot. at 2. The defendants also
seek dismissal of Counts One to Eight pursuant to Federal
Rule of Civil Procedure 12(b)(6), or alternatively, entry
of summary judgment for the defendants on Counts One
to Eight pursuant to Federal Rule of Civil Procedure 56,
arguing that Counts One to Eight “rest on a fundamental
and dispositive error—the assertion that [Ms.] Muthana
is a [United States] citizen.” Defs.’ Mot. at 16. The Court
will first address whether the Court has jurisdiction over
these claims.

4. Section 2339B makes it unlawful to “provide[] material
support or resources to a foreign terrorist organization[.]” 18
U.S.C. § 2339B(a).

52a
Appendix B
a.

Whether the Court Lacks Jurisdiction over
the Plaintiff’s Next Friend Claims

The defendants argue that dismissal of Counts One
to Eight is appropriate pursuant to Rule 12(b)(1) because
the “[pjlaintiff does not satisfy either of Whitmore[v.
Arkansas]'s requirements” for next friend status. Defs.’
Mot. at 13 (citing Whitmore v. Arkansas, 495 U.S. 149,110
S. Ct. 1717,109 L. Ed. 2d 135 (1990)). The plaintiff responds
that he “demonstrates appropriate grounds for next
friend status in this case.” Pl.’s Opp’n at 10 (capitalization
removed). The Court agrees with the plaintiff that he has
standing to bring claims as Ms. Muthana’s next friend.
The traditional prerequisites for next friend
standing were laid out by the Supreme Court
in Whitmore v. Arkansas: “First, a ‘next friend’
must provide an adequate explanation—such
as inaccessibility, mental incompetence, or
other disability—why the real party in interest
cannot appear on h[er] own behalf to prosecute
the action. Second, the ‘next friend’ must be
truly dedicated to the best interests of the
person on whose behalf he seeks to litigate,
and it has been further suggested that a ‘next
friend’ must have some significant relationship
with the real party in interest. The burden
is on the ‘next friend’ clearly to establish the
propriety of his status and thereby justify the
jurisdiction of the court.” Although it is true
that Whitmore focused largely on the habeas
context, ... it recognized that courts have

53a
Appendix B
applied it in other settings .... As such, the
most natural reading of Whitmore is that next
friend standing is not limited to habeas cases,
but instead may be invoked if plaintiffs can
sufficiently demonstrate its necessity.
Ali Jaber v. United States, 155 F. Supp. 3d 70, 75-76
(D.D.C. 2016) (citation omitted) (quoting Whitmore v.
Arkansas, 495 U.S. 149,163-64,110 S. Ct. 1717,109 L. Ed.
2d 135 (1990)), affd sub nom. Jaber v. United States, 861
F.3d 241,430 U.S. App. D.C. 82 (D.C. Cir. 2017).
As to the first prong of the Whitmore test, the
defendants argue that the “[p]laintiff rests his assertion
that he should be entitled to sue as his daughter’s next
friend on the claim that [Ms.] Muthana has had difficulty
communicating with counsel[,]” Defs.’ Mot. at 13 (internal
quotation marks omitted), but the “[p]laintiff acknowledges
that both he and his counsel have received communications
from [Ms.] Muthana, and further acknowledges that [Ms.]
Muthana has repeatedly [been interviewed] by Western
news media,” id. (third alteration in original) (citation and
internal quotation marks omitted). The plaintiff responds
that
Ms. Muthana is being held by Kurdish forces
and has little to no control over her ability to
communicate with the outside world. She is not
able to text or call home freely, and both [the]
[p]laintiff and counsel for [the] [p]laintiff have
no ability to initiate contact with her.

54a
Appendix B
PL’s Opp’n at 10 (citation omitted). Additionally, in his first
declaration submitted to this Court, the plaintiff states
that “[w]henever [he] do[es] hear from [his] daughter, it is
almost always from a new phone number, and she identifies
that she is borrowing a phone from someone, or using the
camp Administration phone[,]” 1st Muthana Decl. 11 39,
and that he “ha[s] tried to reach her subsequently at each
number from which [he] ha[s] received a message from
her, but it has not been successful[,]” id. If 40. Based on
the plaintiffs representations, the Court concludes that
Ms. Muthana is “sufficiently inaccessible to invoke next
friend standing, at least at this stage of the proceedings.”
Ali Jaber, 155 F. Supp. 3d at 76 (concluding that, “on a
motion to dismiss, [the] defendants’ speculation [that the
plaintiffs might be able to participate in court proceedings,
even though they could not leave Yemen,] c[ould] [not]
defeat [the] plaintiffs’ sworn statement that[]... telephone
contact was sporadic and difficult from Khashamir, and
that [teleconferencing, internet,] and other forms of
communication were nearly impossible” (eighth alteration
in original) (internal quotation marks omitted)).
As to the second prong of the Whitmore test, the
defendants argue that the “[p]laintiff has not made an
adequate showing that he is acting in accord with [Ms.]
Muthana’s interests.” Defs.’ Mot. at 14. Specifically, they
argue that the “[p]laintiff alleges that [Ms.] Muthana
wishes to return to the United States and is ready to face
the consequences of her actions[,]... [b]ut [Ms.] Muthana’s
own past statements raise questions regarding whether
[Ms.] Muthana and [the] [p]laintiff are aligned on this
point.” Id. The plaintiff responds that the “[defendants

\

55a
Appendix B
rely on statements made by Ms. Muthana in 2015, nearly
four years ago[,]” and that “[i]n all communications since
leaving ISIS-controlled territory, Ms. Muthana has been
clear and consistent that she regrets her actions and
wishes to return to the United States [to] face justice.”
Pl.’s Opp’n at 12. Additionally, in his first declaration, the
plaintiff states that his “daughter began communicating
with [him] in late 2018 that she wishes to surrender to
United States authorities, and is willing to be subject to
any legal consequences under the United States judicial
system” and “also communicated to [him] at that time
that she wants to return to the United States[] with her
son[,]” and that he “want[s] her to return to the United
States with her son ([his] grandson) as well.” 1st Muthana
Decl. 111131-33.
Although [t]he existence of a significant
relationship enhances the probability that a
putative next friend knows and is dedicated to
the [absent party’s] individual best interests,
courts have refused to infer—simply on the
basis of a close familial tie—that a putative
next friend actually represents the absent
party’s best interests. In other words, where
a party’s own views as to his best interests
appear to conflict with those of a putative next
friend, a court cannot substitute the views of
the would-be next friend for those of the absent
party, even where the purported next friend is a
loving parent who only wants what he rationally
believes to be in the best interests of his adult
child.

56a
Appendix B
Al-Aulaqi v. Obama, 727 F. Supp. 2d 1, 22 (D.D.C. 2010)
(alterations in original) (citations and internal quotation
marks omitted).
Here, however, not only has the plaintiff demonstrated
that he has a significant relationship with Ms. Muthana,
but he has also demonstrated that, since at least late 2018,
their interests have been aligned. See 1st Muthana Deck
1HI31-33 (representing that Ms. Muthana has expressed a
desire to return to the United States); see also Pl.’s Mot.,
Ex. B (Muthana Ltr.) at 4 (letter signed by Ms. Muthana
stating that “[c]oming to Syria was a mistake” and making
“a plea[] to be rescued”); cf Al-Aulaqi, 727 F. Supp. 2d
at 22-23 (concluding that the plaintiff lacked standing to
bring claims as his son’s next friend where his son was
“mentally competent, and ... ha[d] access to the courts
within the meaning of WhitmoreQ [a]nd yet, during the
past ten months that his name ha[d] allegedly appeared on
‘kill lists,’ [his son] ha[d] neither filed suit on his own behalf
nor expressed any desire to do so”). Accordingly, based on
the record in this case, the Court finds that the plaintiff,
as Ms. Muthana’s father, has a significant relationship
with Ms. Muthana and that he is also representing Ms.
Muthana’s best interests.
Because the plaintiff has satisfied the two prongs of
the test for next friend standing articulated in Whitmore,
the Court concludes that the plaintiff has standing to bring
Counts One to Eight as the next friend of Ms. Muthana
and her son and therefore denies the defendants’ motion
to dismiss Counts One to Eight pursuant to Rule 12(b)(1).

57a
Appendix B
b.

Whether Ms. Muthana was Subject to the
Jurisdiction of the United States at the
Time of Her Birth

The defendants argue that dismissal of Counts One
to Eight of the Complaint pursuant to Rule 12(b)(6),
or alternatively, entry of summary judgment for the
defendants on Counts One to Eight pursuant to Rule 56,
is appropriate because Counts One to Eight “all rest on
a fundamental and dispositive error—the assertion that
[Ms.] Muthana is a [United States] citizen.” Defs.’ Mot. at
16. Specifically, they argue that the
[p]laintiff alleges that he was terminated
from his diplomatic position with the Yemeni
Mission to the United States no later than
September 1, 1994. It is undisputed that [(the
“United States Mission”)] was not formally
notified of his termination, however, until
February 6,1995. Thus, under the plain terms
of the Vienna Convention, and consistent with
the practice of the United States regarding
individuals accredited to permanent missions to
the United Nations, [the] [plaintiff’s diplomatic
status ceased on February 6, 1995—the
date the receiving State (the United States,
through [the United States Mission]), received
notice of his termination. In the meantime,
[Ms.] Muthana was born in New Jerse on
1994.

f

58a
Appendix B
Defs.’ Mot. at 19-20 (citations and internal quotation
marks omitted). The plaintiff disputes the defendants’
interpretation of the Vienna Convention, arguing that
“[ijmmunity for a diplomat and family members lasts
only as long as the diplomatic position itself.” Compl. If 41;
see PL’s Opp’n at 2 n.2 (“[The] [pjlaintiff does not believe
the date of official notice to be relevant to the end of his
duties and therefore his entitlement to immunity[.]”). The
plaintiff alternatively argues that, even if Ms. Muthana
did not become a citizen at birth, “[t]he [United States]
government should be equitably estopped from disputing
Ms. Muthana’s previously recognized citizenship based on
its earlier determination.” Pl.’s Opp’n at 33.
As a preliminary matter, the Court addresses whether
the defendants’ motion should be treated as a motion
to dismiss Counts One to Eight pursuant to Rule 12(b)
(6), or as one for summary judgment pursuant to Rule
56. As support for their Rule 12(b)(6) motion to dismiss,
the defendants submitted the declaration of James B.
Donovan, the current Minister for Host Country Affairs
at the United States Mission; supporting exhibits to
Mr. Donovan’s declaration; and a State Department
certification executed by Mr. Donovan. See generally
Donovan Decl.; Defs.’ Mot., Exhibit (“Ex.”) B (certification
by James B. Donovan (Mar. 1, 2019) (“Donovan Cert.”
or the “State Department certification”)). Rule 12(d)
instructs that, “[i]f, on a motion under Rule 12(b)(6) . ..
, matters outside the pleadings are presented to and not
excluded by the [C]ourt, the motion must be treated as
one for summary judgment under Rule 56. All parties
must be given a reasonable opportunity to present all

59a
Appendix B
the material that is pertinent to the motion.” Fed. R.
Civ. P. 12(d); see SM Co. v. Boulter, 842 F. Supp. 2d 85,
100 (D.D.C. 2012) (“The ... Circuit agrees that Federal
Rules 12 and 56 are properly construed to require that a
speaking motion to dismiss must be treated as a motion
for summary judgment.”); see also id. at 97 (defining a
“speaking motion” as a “motion[] attacking the merits
of a pleader’s claim by relying on matters outside the
pleadings, such as affidavits or other factual material”).
“A motion may be treated as one for summary judgment
even if the parties have not been provided with notice or
an opportunity for discovery if they have had a reasonable
opportunity to contest the matters outside of the pleadings
such that they are not taken by surprise.” Beach TV
Props., Inc. v. Solomon, 324 F. Supp. 3d 115,123 (D.D.C.
2018) (quoting Bowe-Connor v. Shinseki, 845 F. Supp.
2d 77, 85 (D.D.C. 2012)). Because it is impossible for the
Court to evaluate the merits of the defendants’ Rule 12(b)
(6) motion to dismiss without considering the materials
submitted by the defendants, and because the plaintiff
was not “taken by surprise[,]” id., by the defendants’
intention to convert their Rule 12(b)(6) motion to dismiss
into a Rule 56 motion for summary judgment, see Defs.’
Mot. at 3 (“[T]he Court should dismiss the [C]omplaint in
its entirety under Rule 12. In the alternative, the Court
should grant summary judgment to [the] [defendants on
Counts [One] t[o] [Eight].”), the Court finds it appropriate
to convert the defendants’ Rule 12(b)(6) motion to dismiss
Counts One to Eight into a Rule 56 motion for summary
judgment on those counts of the Complaint.

60a
Appendix B
The Court next addresses whether the plaintiff
enjoyed diplomatic immunity at the time of Ms. Muthana’s
birth, and whether Ms. Muthana was therefore subject
to the jurisdiction of the United States at the time of
her birth. The Fourteenth Amendment to the United
States Constitution provides that “[a]ll persons born
or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States[.]”
U.S. Const, amend. XIV; see also 8 U.S.C. § 1401(a) (2018).
“The jurisdiction clause ‘was intended to exclude from
its operation children of ministers ... of foreign States
born within the United States.”’ Nikoi v. Attorney Gen.
of United States, 939 F.2d 1065,1066,291 U.S. App. D.C.
237 (D.C. Cir. 1991) (alteration in original) (first quoting
Slaughter-House Cases, 83 U.S. 36,73,21L. Ed. 394 (1873);
then citing United States v. Wong Kim Ark., 169 U.S. 649,
693, 18 S. Ct. 456, 42 L. Ed. 890 (1898)). Thus, children
born in the United States to a parent with diplomatic
immunity at the time of their birth are not “subject to the
jurisdiction” of the United States at the time of their birth.
See id. (“Because one parent was a foreign official with
diplomatic immunity when each child was born, the births
did not confer United States citizenship.”); see also Raya
v. Clinton, 703 F. Supp. 2d 569, 576 (W.D. Va. 2010) (“[I]f
the plaintiffs father was entitled to diplomatic privileges
and immunities in this country on the date the plaintiff
was born, the plaintiff is not a United States citizen.”).
“Pursuant to the Diplomatic Relations Act of 1978, 22
U.S.C. §§ 254a-254e, the governing law in the United
States on the issue of diplomatic privileges and immunities
is the Vienna Convention on Diplomatic Relations” (the
“Vienna Convention”). Raya, 703 F. Supp. 2d at 576.

61a
Appendix B
The determination of whether a person has
diplomatic immunity is a mixed question of law
and fact. [The Court] review[s] such questions
under a hybrid standard, applying to the factual
portion of each inquiry the same standard
applied to questions of pure fact and examining
de novo the legal conclusions derived from those
facts. Interpretation of an international treaty
is an issue of law subject to de novo review.
United States v. Al-Hamdi, 356 F.3d 564, 569 (4th Cir.
2004) (citations and internal quotation marks omitted).
In determining whether the plaintiff enjoyed
diplomatic immunity at the time of Ms. Muthana’s birth,
the Court must first determine whether the defendants’
interpretation of the Vienna Convention, i.e., that the
plaintiffs diplomatic immunity extended until the date
when the United States Mission was notified of his
termination, is reasonable. See id. at 570 (“[The Court]
first must ensure that the State Department’s certification
was not based on an impermissible interpretation of the
Vienna Convention. Then, [the Court] will examine the
evidentiary effect of the State Department’s certification
made pursuant to that interpretation.”). The Vienna
Convention provides that “[t]he Ministry for Foreign
Affairs of the receiving State, or such other ministry as
may be agreed, shall be notified of: [ ] the appointment
of members of the mission, their arrival and their final
departure or the termination of theirfunctions with the
mission[.]” Vienna Convention, art. 10(l)(a), Apr. 18,1961,
23 U.S.T. 3227 (emphasis added). It further provides that

62a
Appendix B
[w]hen the functions of a person enjoying
privileges and immunities have come to an end,
such privileges and immunities shall normally
cease at the moment when he leaves the country,
or on expiry of a reasonable period in which to
do so, but shall subsist until that time, even in
case of armed conflict.
Id. art. 39(2) (emphasis added). Article 43 of the Vienna
Convention provides that
[t]he function of a diplomatic agent comes to an
end, inter alia:
(a) on notification by the sending State to
the receiving State that the function of the
diplomatic agent has come to an end;
(b) on notification by the receiving State to
the sending State that, in accordance with
paragraph 2 of Article 9, it refuses to recognize
the diplomatic agent as a member of the mission.
Id. art. 43 (emphasis added); see Raya, 703 F. Supp. 2d
at 576.
When interpreting a treaty or memorandum
of understanding, [the Court] [is] guided by
principles similar to those governing statutory
interpretation. [The Court] must, of course,
begin with the language of the [t]reaty itself. At
this level, [t]he clear import of treaty language

63a
Appendix B
controls unless application of the words of
the of the treaty according to their obvious
meaning effects a result inconsistent with the
intent or expectations of its signatories. To
the extent that the meaning of treaty terms
are not plain, [the Court] give[s] great weight
to the meaning attributed to treaty provisions
by the [government agencies charged with
their negotiation and enforcement.... [WJhere
an agency has wide latitude in interpreting
the [treaty], . . . [the Court] will defer to its
reasonable interpretation.
Iceland S.S. Co. Ltd.-Eimskip v. U.S. Dep’t ofArmy, 201
F.3d 451,458,340 U.S. App. D.C. 1 (D.C. Cir. 2000) (fifth
and twelfth alterations in original) (emphasis added)
(citations and internal quotation marks omitted).
Here, the Court must “give ‘substantial deference’
to the State Department’s interpretation of [the Vienna
Convention], and in the context of diplomatic immunity,
the receiving state always has had ‘broad discretion to
classify diplomats.’” Al-Hamdi, 356 F.3d at 571 (quoting
Abdulaziz v. Metro. Dade Cty., 741 F.2d 1328,1331 (11th
Cir. 1984)). Moreover, the plaintiff in this case “has failed
to show how the [defendants’] interpretation violates the
dictates of the Vienna Convention or infringes on the
[Vienna] Convention’s purpose of ensuring] the efficient
performance of the functions of diplomatic missions as
representing States.” Id. (third alteration in original)
(internal quotation marks omitted). Indeed, it is the
plaintiff’s—not the defendants’—interpretation of the

64a
Appendix B
Vienna Convention that “violates the dictates of the
Vienna Convention.” Id. The plaintiffs interpretation of
the Vienna Convention, i.e., that the plaintiff’s diplomatic
function came to an end on September 1,1994, the date
when his diplomatic position was terminated, violates
traditional canons of construction by rendering Article
43 of the Vienna Convention, which states that “[t]he
function of a diplomatic agent comes to an end[] ... on
notification by the sending State to the receiving State
that the function of the diplomatic agent has come to an
end[,]” Vienna Convention art. 43(a) (emphasis added),
“insignificant, if not wholly superfluous [,]” Duncan v.
Walker, 533 U.S. 167,174,121 S. Ct. 2120,150 L. Ed. 2d
251 (2001) (stating that it is the Court’s “duty to give effect,
if possible, to every clause and word of a statute” (internal
quotation marks omitted)); see Pielage v. McConnell,
516 F.3d 1282, 1288 (11th Cir. 2008) (“[Treaties, like
statutes, should be construed so that no words are treated
as being meaningless, redundant, or mere surplusage.”).
Accordingly, the Court concludes that the defendants’
interpretation of the Vienna Convention is reasonable.
Having concluded that the defendants’ interpretation
of the Vienna Convention is reasonable, the Court
next turns to whether the defendants have provided
conclusive proof of the date of notification of the plaintiff’s
termination, or whether further discovery is required.
The defendants argue that “the Court should consider
the [State] Departments]... certification as conclusive
proof of the dates [the] [p]laintiff enjoyed diplomatic
immunity.” Defs.’ Reply at 12. The plaintiff responds
that “[t]his Court, and [the] [p]laintiff, are not obligated

65a
Appendix B
to accept the determination made by [the] [defendants
regarding [the plaintiffs] diplomatic status, particularly
when the [State] Department. . . documents contradict
themselves and the [State] Department's]... own prior
determination.” PL’s Opp’n at 32. The Supreme Court
has “stated that because Article II of the Constitution
gave the executive branch the power to send and receive
ambassadors, ‘the certificate of the [Secretary of [S]tate
... is the best evidence to prove the diplomatic character
of a person accredited as a minister.’” Al-Hamdi, 356
F.3d at 571 (quoting In re Baiz, 135 U.S. 403, 421, 10 S.
Ct. 854, 34 L. Ed. 222 (1890)). Additionally, “[i]n cases
of more recent vintage, circuit courts have continued to
find the State Department’s certification conclusive.” Id.
at 572 (collecting cases); see id. at 573 (“holding] that the
State Department’s certification, which [was] based upon
a reasonable interpretation of the Vienna Convention,
[was] conclusive evidence as to the diplomatic status of
an individual”).
As support of their alternative motion for summary
judgment in this case, the defendants submitted the State
Department certification, executed by Mr. Donovan,
which states that “[o]n February 6, 1995, the United
Nations provided the [United States] Mission with official
notification of [the plaintiff’s] termination from the
Yemeni Mission.... [The plaintiff] and his family enjoyed
diplomatic agent level immunity until February 6,1995.”
Defs.’ Mot., Ex. B (Donovan Cert.); see Pl.’s Opp’n at 2-3
n.2. This certification, which, as the Court has already
concluded, “is based upon a reasonable interpretation of
the Vienna Convention, is conclusive evidence as to the

I

66a
Appendix B
diplomatic status” of the plaintiff. Al-Hamdi, 356 F.3d at
573. Moreover, the defendants have provided additional
records corroborating the State Department certification.
See Donovan Decl., Ex. 1 (KARDEX Record for Ahmed Ali
Muthana) (indicating that the plaintiff’s diplomatic status
was terminated on February 6,1995); id., Ex. 2 (TOMIS
Record for Ahmed Ali Muthana) (same). Despite this
documentation, the plaintiff responds that “the documents
provided by [the] [defendants do not conclusively reveal
the date on which the United States first learned of the
end of [the plaintiffs] duties.” Pl.’s Opp’n at 2 n.2. To
counter the State Department certification, the plaintiff
relies on a certification executed by Russell F. Graham,
who previously served as the Minister Counsel of Host
Country Affairs at the United States Mission, the position
currently occupied by Mr. Donovan, “certifying] that
... [the plaintiff] was notified to the United States Mission
as a diplomatic member to the Permanent Mission of
Yemen to the United Nations from October 15, 1990 to
September 1,1994.” Pl.’s Opp’n at 2 n.2; see Compl., Ex.
C (certification by Russell F. Graham (Oct. 18,2004)) (the
“Graham certification”)). Additionally, the plaintiff argues
that one of the exhibits submitted with Mr. Donovan’s
declaration raises a question as to the date when the
United States Mission received official notification of
the plaintiff’s termination because it indicates that the
plaintiff “left the [United States] Mission in September
1994[.]” Donovan Decl., Ex. 3 (termination list sent
from United Nations Office of Protocol to United States
Mission) (the “termination list”)). However, both the
Graham certification and the termination list speak to
the date of the plaintiff’s termination from the United

67a
Appendix B
States Mission, not the date when the United States
Mission was notified of the plaintiff’s termination from
the United States Mission. As discussed supra, it is the
date of notification of the plaintiff’s termination—not the
date of the termination itself—that governs the diplomatic
immunity inquiry, and thus the Graham certification and
the termination list do not undermine the determination in
the State Department certification that the United States
Mission did not receive notice of the plaintiff’s termination
until February 6,1995. Therefore, because the defendants
have offered “conclusive evidence as to the diplomatic
status” of the plaintiff at the time of Ms. Muthana’s
birth, Al-Hamdi, 356 F.3d at 573, which the plaintiff has
failed to rebut, “th[e] Court may not go behind the State
Department’s determination that the plaintiff’s father
enjoyed diplomatic privileges and immunities... through
[February 6, 1995], or permit the plaintiff to engage in
further discovery on this issue.” Raya, 703 F. Supp. 2d
at 578. And, “[bjecause the certification from the State
Department conclusively establishes that the plaintiff[]
[ ] enjoyed diplomatic privileges and immunities in the
United States on the date that [Ms. Muthana] was born,
[the Court is compelled to conclude that] [Ms. Muthana] is
not a United States citizen” by virtue of having been born
in the United States,5 id., and John Doe is not a United
5. In Count Two, the plaintiff argues that Ms. Muthana
became a citizen at birth based on “her mother’s pending legal
residency and prior legal entry into the United States.” Compl. at
13 (emphasis added). However, this claim has no merit because, at
the time of Ms. Muthana’s birth, Ms. Muthana’s mother was not
a United States citizen and therefore, as the plaintiffs wife, she
too enjoyed diplomatic immunity at the time of Ms. Muthana’s

68a
Appendix B
States citizen by virtue of being Ms. Muthana’s child.6
Relying on Magnuson v. Baker, a Ninth Circuit case,
birth. See Vienna Convention art. 37(1) (“The members of the
family of a diplomatic agent forming part of his household shall, if
they are not nationals of the receiving State, enjoy the privileges
and immunities specified in articles 29 to 36.”); see also Nikoi,
939 F.2d at 1066 (“Because one parent was a foreign official with
diplomatic immunity when each child was born, the births did not
confer United States citizenship.” (emphasis added)).
6. The following would be the legal basis for Ms. Muthana’s
son acquiring United States citizenship at birth:
A person born abroad in wedlock to a [United
States] citizen and an alien acquires [United States]
citizenship at birth if the [United States] citizen parent
has been physically present in the United States or one
of its outlying possessions prior to the person’s birth
for the period required by the statute in effect when
the person was born ([Immigration and Nationality
Act] [§] 301(g), formerly [Immigration and Nationality
Act] [§] 301(a)(7)[]). For birth on or after November
14,1986, the [United States] citizen parent must have
been physically present in the United States or one
of its outlying possession for five years prior to the
person’s birth, at least two of which were after the
age of fourteen.
Acquisition of U.S. Citizenship by a Child Born Abroad, U.S.
Dep’t of State — Bureau of Consular Affairs, https://travel.
state.gov/content/travel/en/legal/travel-legal-considerations/
us-citizenship/Acquisition-US-Citizenship-Child-Born-Abroad.
html (last visited Dec. 9, 2019). However, this means of acquiring
United States citizenship at birth does not apply here since Ms.
Muthana is not a United States citizen.

69a
Appendix B
see PL’s Opp’n at 35-36 (citing Magnuson v. Baker, 911
F.2d 330 (9th Cir. 1989)), the plaintiff argues that even if
Ms. Muthana did not become a United States citizen at
the time of her birth, the defendants “should be equitably
estopped from disputing Ms. Muthana’s previously
recognized citizenship based on [the State Department’s]
earlier determination” that Ms. Muthana was a United
States citizen. Id. at 33. Specifically, he alleges that “the
United States, in recognition of Ms. Muthana’s birthright
citizenship, granted Ms. Muthana a United States passport
in January 2005, and later renewed that passport in 2014.”
Id. at 34. He argues that the “defendants are prevented by
estoppel from now disputing Ms. Muthana’s citizenshipf,]”
id. at 33 (capitalization removed), because “[the plaintiff]
and his daughter relied on this representation, and as a
result did not take further action to procure or clarify her
status in the United States, as they would have otherwise,
and as [the plaintiff] did for [his] older children[,]” id. at
34. Additionally, he contends that “[t]here is no evidence
to suggest that [the plaintiff] or his daughter (who was a
minor at the time) acted in bad faith or presented anything
but accurate information to the United States.” Id. at
34. The defendants respond that “courts cannot grant
citizenship through use of equitable powers[,]” Defs.’
Reply at 18, and the “[plaintiff’s allegations establish
that the [State] Department... did exactly what it was
statutorily authorized to do: revoke an erroneous grant of
a passport in a routine exercise of the Secretary of State’s
authority[,]” id. at 19.
At the outset, the Court notes that the plaintiff’s
reliance on Magnuson is misplaced. Although the Ninth

70a
Appendix B
Circuit in Magnuson concluded that the Secretary of
State could not revoke a previously-issued United States
passport with a pre-revocation hearing “solely on the
basis of‘second thoughts[,]”’ Magnuson, 911 F.2d at 336,
the legal landscape regarding cancellation
of passports has changed substantially since
Magnuson was decided in 1990. In 1994,
Congress added a section to the Immigration
and Nationality Act authorizing the Secretary
of State to cancel passports and reports of birth
if it appeared that they were obtained illegally,
fraudulently, or erroneously.
Atem v. Ashcroft, 312 F. Supp. 2d 792,799 (E.D. Va. 2004).
Section 1504 of Title 8 of the United States Code provides
that “[t]he Secretary of State is authorized to cancel any
United States passport or Consular Report of Birth, or
certified copy thereof, if it appears that such document
was illegally, fraudulently, or erroneously obtained from,
or was created through illegality or fraud practiced upon,
the Secretary.” 8 U.S.C. § 1504(a). “In light of Congresses]
enactment of § 1504, the Ninth Circuit’s conclusion [in
Magnuson]... is no longer persuasive. This is so because
Congress has now expressly authorized the Secretary of
State to revoke passports in certain instancesf.]” Atem,
312 F. Supp. 2d at 799.
Moreover, equitable relief is not otherwise available
to Ms. Muthana in this instance. “Courts cannot grant
citizenship through their equitable powers.” Hizam v.
Kerry, 1A1 F.3d 102,110 (2d Cir. 2014) (citing Immigration

71a
Appendix B
& Nationality Serv. v. Pangilinan, 486 U.S. 875,885,108
S. Ct. 2210,100 L. Ed. 2d 882 (1988)); see also Pangilinan,
486 U.S. at 885 (“Neither by application of the doctrine
of estoppel, nor by invocation of equitable powers, nor by
any other means does a court have the power to confer
citizenship in violation of these limitations.”). “When the
State Department issues a [passport] it does not grant
citizenship—it simply certifies that a person was a citizen
at birth. Issuing or revoking a [passport] does not change
the underlying circumstances of an individual’s birth and
does not affect an individual’s citizenship status.” Hizam,
747 F.3d at 107 (citing 8 U.S.C. § 1504(a)); see Chacoty v.
Tillerson, 285 F. Supp. 3d 293, 298 (D.D.C. 2018) (“The
issuance or rescission of a [passport] [ ], ‘affect[s] only the
document and not the citizenship status of the person.’
That is because ... passports [] do not confer citizenship;
rather, they merely provide proof of one’s status of as
a citizen.” (quoting 8 U.S.C. § 1504(a)). Therefore, the
State Department’s “[r]evocation] [of] [Ms. Muthana’s]
[passport] did not change h[er] citizenship status. Instead,
it withdrew the proof of a status [that] [s]he did not
possess.” Hizam, 747 F.3d at 108. Thus,
[b]ecause the [passport] does not confer
citizenship, and because [Ms. Muthana] is
plainly not a citizen, . . . [an] order [by this
Court] that the State Department re-issue the
[passport] [would] allow[] [Ms. Muthana] to
maintain proof of citizenship without actually
being a citizen.... Such an incongruous result
cannot stand.

72a
Appendix B
Id. at 110; see Pangilinan, 486 U.S. at 884 (“Once it
has been determined that a person does not qualify
for citizenship, . . . the district court has no discretion
to ignore the defect and grant citizenship.” (quoting
Fedorenko v. United States, 449 U.S. 490, 517,101 S. Ct.
737, 66 L. Ed. 2d 686 (1988))). The Court must therefore
deny the plaintiff’s request for equitable relief.
Accordingly, because the defendants have offered
conclusive evidence that the plaintiff enjoyed diplomatic
immunity at the time of Ms. Muthana’s birth and therefore
Ms. Muthana did not acquire citizenship by birth and her
son did not acquire citizenship as a child born abroad to a
United States citizen, and equitable relief is not available
to Ms. Muthana, the Court must grant summary judgment
to the defendants on Counts One to Eight of the Complaint
pursuant to Rule 56.
2.

Count Nine

The defendants argue that Count Nine should
be dismissed pursuant to Rule 12(b)(1) because the
“[pjlaintiff has not established standing” on Count Nine
and “improperly seeks an advisory opinion.” Defs.’
Mot. at 40. Specifically, the defendants argue that the
“[pjlaintiff has not alleged that he has a constitutional
right to provide support to [Ms.] Muthana, which is
necessity to establishing standing under the rule of
Babbitt v. [United] Farm Workers.” Defs.’ Reply at 24
(citing Babbitt v. United Farm Workers, 442 U.S. 289,99
S. Ct. 2301,60 L. Ed. 2d 895 (1979)). The plaintiff counters
that “he wishes to provide assistance to his daughter and

73a
Appendix B
grandson to assist with his daughter’s exercise of her
constitutional right to return to the United States[,] [ ]
[which] fits within the framework contemplated in Holder
v. Humanitarian Law Projects]” Pl.’s Opp’n at 38 (citing
Holder v. Humanitarian Law Project, 561 U.S. 1,130 S.
Ct. 2705, 177 L. Ed. 2d 355 (2010)). However, the Court
agrees with the defendants that the plaintiff does not have
standing to bring Count Nine in his individual capacity.
Where a plaintiff has yet to face prosecution
under a statute he seeks to challenge, the
Supreme Court, in Babbitt v. United Farm
Workers, requires that he establish Article
III standing by (1) “alleging] an intention to
engage in a course of conduct arguably affected
with a constitutional interest, but proscribed
by a statute,” and (2) demonstrating that
“there exists a credible threat of prosecution
thereunder.”
Ord v. District of Columbia, 587 F.3d 1136, -1140, 388
U.S. App. D.C. 378 (D.C. Cir. 2009) (alteration in original)
(quoting Babbitt, 442 U.S. at 299).
The plaintiffs reliance on Holder is misplaced. As
the defendants correctly note, unlike the plaintiffs in
Holder, who “brought a pre-enforcement constitutional
challenge alleging that 18 U.S.C. § 2339B violated their
constitutional rights,” Defs.’ Reply at 25; see Holder,
561 U.S. at 10-11 (“claiming] that the material-support
' statute was unconstitutional... [because] it violated their
freedom of speech and freedom of association under the

74a
Appendix B
First Amendment” and “was unconstitutionally vague”),
the plaintiff in this case does not challenge the legality of
the statute; he merely seeks a declaratory judgment “that
he may send money to ensure the survival of his daughter
and grandson . . . without incurring liability under §
2339B[,]” Compl. at 27. Moreover, even assuming that the
plaintiff is challenging the legality of the statute, he has
not identified any personal constitutional right of his that
would be affected. As the defendants correctly argue, the
“[pjlaintiff does not allege a constitutional right to transfer
money abroad to an adult child.” Defs.’ Mot. at 41. And,
because the plaintiff brings Count Nine individually, not
in a next friend capacity, he cannot claim a violation of Ms.
Muthana’s purported constitutional rights to establish
his own standing on this claim. Thus, the plaintiff fails
to satisfy the first prong of the Babbitt pre-enforcement
standing test. The Court therefore grants the defendants’
motion to dismiss Count Nine of the Complaint pursuant
to Rule 12(b)(1).
IV. CONCLUSION
Every judge at some point in his or her career will
have to decide a case he or she wishes had not been
assigned to him or her. This is one of those cases.
As the father of a daughter, the undersigned can
appreciate the anguish the plaintiff is experiencing
resulting from his daughter’s conduct. Unfortunately,
children all too often make bad decisions, and sometimes
those decisions can be life-altering, which is the
consequence in this case. And, as the father of a daughter,

75a
Appendix B
the undersigned, if sympathy could rule the day, would
have been tempted to provide at least some of the relief
requested. However, emotions cannot play a role in the
judicial decision-making process. Rather, adherence to
law must control. That command—not the thousands
of written, electronic, and telephonic communications
directed to the undersigned, some of which can reasonably
be construed as threats if the Court ruled in the plaintiffs
favor, nor compassion for the plaintiff, his daughter, or
his grandson—caused the Court to rule as it has. While
these rulings provide no sense of gratification to the
undersigned, the analysis of the current state of the law
precludes reaching any other conclusions on the issues
raised in this case.
Accordingly, for the foregoing reasons, the Court
grants the plaintiff’s renewed motion for expedited
relief. The Court also grants in part and denies in part
the defendants’ motion to dismiss. Specifically, the Court
grants the defendants’ motion to dismiss to the extent that
it seeks (1) entry of summary judgment for the defendants
on Counts One to Eight for the Complaint pursuant to
Rule 56 and (2) dismissal of Count Nine of the Complaint
pursuant to Rule 12(b)(1), and denies the motion in all
other respects.
SO ORDERED this 9th day of December, 2019.
/s/ Reggie B. Walton_____
REGGIE B. WALTON
United States District Judge

